<html>
<title> - CHINA, THE WTO, AND HUMAN RIGHTS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
                    CHINA, THE WTO, AND HUMAN RIGHTS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, DECEMBER 8, 1999

                               __________

                           Serial No. 106-102

                               __________

    Printed for the use of the Committee on International Relations


 Available via the World Wide Web: http://www.house.gov/international 
                               relations

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
64-475 CC                    WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
                      Douglas C. Anderson, Counsel
                Peter Hickey, Democratic Staff Director
                  Nicolle A. Sestric, Staff Associate



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Lori Wallach, President, Global Trade Watch......................     7
Stephen Rickard, Director, Washington, D.C. Legislative Office, 
  Amnesty International USA......................................     9
Charles Wowkanech, President, New Jersey State AFL-CIO...........    12
Harry Wu, Executive Director, Laogai Research Foundation.........    17
Mary Beth Markey, Director of Government Relations, International 
  Campaign for Tibet.............................................    20

                                APPENDIX

Prepared statements:

Hon. Christopher H. Smith, a U.S. Representative in Congress from 
  the State of New Jersey, Chairman, Subcommittee on 
  International Operations and Human Rights......................    42
Lori Wallach.....................................................    46
Stephen Rickard..................................................    50
Charles Wowkanech................................................    65
Harry Wu.........................................................    68
Mary Beth Markey.................................................    71

Additional material submitted for the record:

Statement submitted by Mr. Wei Jingsheng.........................    75
Letter to President William J. Clinton...........................    76
Congressional Research Service Memo, submitted by Ms. Wallach....    78



                    CHINA, THE WTO, AND HUMAN RIGHTS

                              ----------                              


                      Wednesday, December 8, 1999

                  House of Representatives,
                      Subcommittee on International
                               Operations and Human Rights,
                              Committee on International Relations,
        Washington, D.C.
    The Subcommittee met, pursuant to notice, at 1:35 p.m. In 
Room 2118, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the Subcommittee) presiding.
    Mr. Smith. The Subcommittee will come to order. Good 
afternoon. The unrest in the streets of Seattle this past week 
suddenly focused the world's attention on the activities of the 
World Trade Organization. The protests raised many important 
questions about the way that the WTO conducts its affairs and 
the nature of economic globalization.
    At a time when so many of the premises of the World Trade 
Organization are being reexamined, it is particularly 
appropriate that the Congress examine the potential impact that 
WTO membership might have on one of the world's fastest growing 
trade powers and most egregious violators of fundamental human 
rights, the People's Republic of China.
    For the past several years, the Beijing regime has made 
accession to the WTO a top priority, hoping to gain permanent 
MFN status from other WTO members, most notably from the United 
States. On November 15, the possibility of China's accession 
became more likely when the Clinton administration and PRC 
officials announced, with smiles and champagne, that the two 
countries had reached a bilateral trade agreement. I, for one, 
saw no reason to cheer.
    The question before this Subcommittee and the Congress is 
whether, at this moment in history, bringing the PRC into a 
permanent and more privileged trading relationship with the 
United States and other WTO members will make it act more 
humanely toward its own people. Sadly, this year of so-called 
progress toward PRC accession to the WTO has also been another 
year of significant regression for human rights in China.
    In quarterly reports, tracking the seven human rights 
policy goals that President Clinton publicly announced before 
his 1998 trip to Beijing, Amnesty International found a 
complete lack of improvement in all categories. Amnesty rated 
Beijing in all seven areas and gave the regime seven Fs.
    Here are the specifics: Release of all prisoners of 
conscience and Tiananmen Square prisoners: total failure; 
Regression. Review of all counterrevolutionary prison terms: 
Total failure; no progress. Allow religious freedom: Total 
failure; no progress. Prevent coercive family planning and 
harvesting of organs. No progress. Fully implement pledges on 
human rights treaties: No progress. Review the reeducation 
through labor system: Total failure, no progress. End police 
and prison brutality: Again, total failure, no progress.
    The Communist government of the PRC blatantly and 
systematically violates basic human rights on a massive scale. 
It does not allow significant political dissent. It continues 
to repress the China Democracy Party, whose representatives 
appeared before us at a hearing earlier this year. As of 
October, some 30 CDP leaders remained in government custody, 
some of them having received stiff sentences of up to 13 years 
for their pro-democracy activities.
    According to the State Department, the PRC, and I quote, 
``continues to restrict tightly worker rights and forced labor 
remains a problem,'' close quote. The Department's latest 
country report on human rights practices in China states that, 
and I quote again, ``independent trade unions remain illegal 
within China. The government has attempted to stamp out 
illegal, ``that is, independent,'' ``union activity,''. The 
administration also admits that Beijing's compliance with the 
U.S.-China memorandum of understanding, or MOU, on prison-made 
goods has been inadequate in all the cases, they write, of U.S. 
inspection requests in 1998; the ministry of justice refused 
the request, ignored it, or simply denied the allegations made 
without further elaboration. In addition, poor enforcement of 
occupational safety and health regulations continues to put 
workers' lives at risk.
    The deplorable state of workers' rights in the PRC not only 
means that Chinese men, women, and children in the work force 
are exploited and put at risk, but also that U.S. workers are 
severely hurt as well by profoundly unfair advantage that go to 
those corporations who benefit from these heinous labor 
practices. Human rights abuses abroad have a direct consequence 
of robbing Americans of their jobs and their livelihoods right 
here at home.
    As we will hear today from Charlie Wowkanech, the president 
of the New Jersey State AFL-CIO and I quote him, ``Chinese 
economic policy depends on maintenance of a strategy of 
aggressive exports and carefully restricted foreign access to 
its home market. The systematic violation of internationally 
recognized workers' rights is a strategically necessary 
component of that policy. Chinese labor activists are regularly 
jailed,'' he writes, ``or imprisoned in reeducation camps for 
advocating free and independent trade unions, for protesting 
corruption and embezzlement, for insisting that they be paid 
the wages that they are owed, and for talking to journalists 
about working conditions in China. In January 1999, police 
attacked a group of retired factory workers in Wuhan, who were 
protesting unpaid wages and pensions. Many of the retirees were 
beaten,'' close quote.
    The PRC also imprisons religious leaders, ranging from the 
10-year-old Panchen Lama to the elderly Catholic Bishop Su of 
Baoding province. It summarily executes political and religious 
prisons in the Xinjiang Uighur Autonomous Region. It harvests 
and sells the internal organs of executed prisoners. It forces 
women who have unauthorized pregnancies to abort their children 
and to submit to sterilization. It continues to brutalize the 
indigenous peoples of Tibet and Xinjiang. It uses slave labor 
to manufacture products for export.
    The most obvious deterioration in the situation in China 
has been the Chinese government's massive crackdown on Falun 
Gong, a nonviolent meditative spiritual practice with millions 
of adherents in China and elsewhere. Since the group was banned 
in July of this year, thousands of ordinary citizens from all 
over China have been jailed for refusing to give up their 
practice of Falun Gong. There have been many credible reports 
of torture and inhumane treatment of detained practitioners, 
including a report that a 42-year-old woman was tortured by the 
Chinese government to death. Numerous practitioners have been 
sentenced to labor camps without trial, and thousands have lost 
their jobs or been expelled from schools. In hearings closed to 
the public, adherents have been sentenced to up to a dozen 
years in prison for using, as they say, ``an evil cult to 
obstruct the law''. The Beijing regime has publicly declared 
its intention to, quote, ``smash'' Falun Gong.
    The utter failure of the administration's current policy of 
constructive engagement with China should come as no surprise. 
While the rulers of the Chinese Communist Party may be ruthless 
and despotic, they are not stupid. If there are no costs 
associated with the brutality that keeps them in power, then 
they have no incentive to become less brutal. In fact, they 
will become bolder, as they have.
    China has suspended its human rights dialogue, for example, 
with the United States. Recently, the Chinese ministry of 
foreign affairs has even stopped accepting diplomatic protests 
from the United States regarding human rights issues. According 
to yesterday's Washington Post, and I quote, ``The State 
Department must now issue the protests in Washington, a 
significant change in diplomatic protocol.''
    According to many accounts, if China were to accede to the 
World Trade Organization, the U.S. would be required to either 
grant Beijing permanent MFN status or to lose the benefits of 
WTO agreements with China. As it stands today, China's most-
favored-nation trading status with the U.S. is reviewed, as we 
know, annually. Although that status has been renewed in recent 
years by Presidential waivers of the Jackson-Vanik freedom of 
Emigration requirement, the annual debate and the possibility 
of MFN revocation are arguably the most important leverage that 
the U.S. still has to influence the human rights situation in 
China. Surrendering that leverage to Beijing would send exactly 
the wrong message at the wrong time.
    Of course, when we begin talking about conditioning trade 
and economic benefits on basic respect for human rights, we 
provoke the predictable litany of responses from business 
interests: Sanctions don't work. Unilateral actions are 
counterproductive. And so on.
    But when big business and the Clinton administration really 
want to change Beijing's conduct, such as in the effort to get 
China to respect international copyrights or intellectual 
property rights, what do they do? They use the credible and 
imminent threat of economic sanctions, the very same sanctions 
they say would be counterproductive as a means of promoting 
political and religious rights and freedom in China. On at 
least three occasions since 1991, the U.S. trade representative 
has threatened to impose billions of dollars in sanctions to 
vindicate U.S. intellectual property interests. In each of 
those cases, when faced with sanctions, the Chinese government 
changed its behavior.
    The WTO dispute settlement moreover relies on the same 
kinds of sanctions as the primary mechanism to enforce the WTO 
agreement. Under article 22.2 of the WTO's understanding on 
rules and procedures governing the settlement of disputes, the 
final means of vindicating a claim against a noncomplying 
member is the imposition of unilateral, retaliatory sanctions 
by any other nation that may choose to impose such sanctions.
    By their actions, big business and the Clinton 
administration show their faith in sanctions. By their 
reactions, Chinese leaders show the effectiveness of sanctions 
as well. Thus, the question before us is not: Can economic 
sanctions work? It is, why do we use sanctions to protect 
software but not human life? To protect musical recordings but 
not the rights of religious believers, or workers rights or 
political prisoners? We will do it to stop movie piracy, but we 
won't do it to stop torture. I have yet to hear a real answer 
to that question. I have posed that time and time again to 
administration witnesses and others who have come before our 
Committee and before the Full Committee.
    Unless someone can give me another plausible explanation, I 
must reluctantly conclude that some business interests and U.S. 
officials understand full well that sanctions, and the threat 
of sanctions, can and do work to change the conduct of the PRC 
and similar governments. But they also know that sanctions may 
be subject to the law of diminishing returns. For example, if a 
certain punitive tariff rate were already in effect because of 
egregious human rights violations, then it would no longer be 
useful to threaten the same punishment in order to vindicate 
intellectual property rights. Big business would prefer to 
conserve the limited resource of trade leverage for their own 
uses, and the rules of the WTO attempt to turn this preference 
into international law. The selective use of rhetoric 
denouncing unilateral sanctions hides an implicit 
prioritization of profits above fundamental human rights.
    That is wrong. We must not abandon the American ideals of 
freedom and democracy for the sake of marginally cheaper 
consumer goods and access to cheap labor. We must condition 
expanded trade relations upon at least minimal respect for 
fundamental human rights. American interests and American 
values demand no less.
    I would like to yield to my good friend from California, 
Mr. Rohrabacher, for any opening comments he might have.
    Mr. Rohrabacher. Thank you very much. I certainly want to 
associate myself very closely with the remarks that you just 
made, and I appreciate you calling this hearing in order to put 
the demonstrations that took place up in Seattle in a 
perspective. Obviously this, what is going on in our country, 
is not a left-right conflict when you have the two of us siding 
with some of the demonstrators that were making their feelings 
very well known in the streets of Seattle.
    The WTO is an organization which it seems the business 
community wants to invest a lot of authority in because the 
business community feels that they are in control and will be 
in control of the decisions of the WTO. That is that. I am 
someone who believes that centralized authority and centralized 
decisionmaking is contrary to American tradition and contrary 
to certainly of the beliefs that I hold dear, of trying to let 
people at the lowest level of government make the decisions 
that are important for them as well as right on down the line. 
At least everybody is involved with the decisionmaking.
    From what I see, the WTO is not going to be a democratic 
institution. Where are all the elections that are going to be 
determining the WTO and the decisions and reaffirming the 
decisions that are made there? It is totally contradictory to 
me for an American citizen to want to give up this type of 
authority, especially when what we are really talking about is 
the legal use of economic pressure. Are we going to indeed 
invest all of the power to exert economic pressure and force on 
nations into a world organization? If we are indeed going to do 
that, why are we permitting the Communist Chinese to become 
part of that organization?
    It makes a mockery out of the United Nations to have the 
world's worst human rights abuser have a veto power in the 
Security Council of the United Nations. It is a mockery. What 
can you do for the cause of human liberty when you have got the 
world's worst human rights abuser with a veto power? Here we 
have people in the West, especially the United States of 
America, literally begging the Communist Chinese to get 
involved with what would be considered an international chamber 
of commerce. What do you want the local gangster to become 
involved in the chamber of commerce for? What is that all 
about?
    They have got some businessmen who may know how to run 
their own business but don't have much sense and certainly have 
no loyalty to the values that we Americans hold dear when it 
comes to liberty and justice and human decency. They are there 
to make a profit. That is what business is supposed to be for, 
make a profit. We will listen to them about making a profit, 
but the heck if we are going to let them make our decisions 
about what the moral values and the moral standards and the 
standards of liberty and justice will be for the United States 
of America. That is left up to the people of this country, and 
we are not going to vest that power in a World Trade 
Organization that will tell the people of Boston or the people 
of some community that they cannot boycott Burma or some other 
country because of horrible human rights abuses that are going 
on in that country.
    We as Americans believe that people have a right to 
exercise decisionmaking. That is why people threw the tea in 
Boston harbor. That is what that was all about. I do not want 
to set up a scenario where we have the Communist Chinese and 
the Burmese and the Nigerians and the people from Sudan who run 
Sudan, and other countries like that, dominating a World Trade 
Organization that we have vested with power and authority. Our 
businessmen have pushed us into that policy and then find out 
that these other countries end up calling the shots 10 years 
down the road. That is exactly the direction this will go, mark 
my words.
    If we let this happen, we will have people who hate 
everything that the United States stands for, people who 
despise us, people who have no concept of human rights in their 
own country, people who despise democracy and think of it as a 
threat. Criminals and crooks who control these countries will 
now find themselves in a position of leverage and authority in 
a new world trading organization that has been granted 
authority to make these type of decisions as to what type of 
economic pressure can be put on various regimes.
    I don't believe that you should only use military force or 
do nothing. I think economic pressure is and should be an 
alternative the United States of America has, and it should be 
something that local communities and States have as well. If a 
State legislature wants to say no, nothing will be purchased by 
this State government from some outrageous genocidal regime 
like the SLORC regime in Burma, more power to them. I think 
that is a great statement for the world to hear, and it is 
their right as Americans to declare that.
    So we have got to nip this thing in the bud right now. We 
have got to let the American people know what the drawbacks are 
to WTO and the fact that China, they are begging China to get 
in--pardon me for being so blunt about it--the tongues of our 
people are sore from licking the boots of these dictators. It 
is embarrassing.
    So today we say ``wake up, America''. We are going into the 
holiday season where we celebrate our most cherished religious 
values, Christians and Jews and others, and Ramadan is about to 
happen as well. Let us recognize that there are some 
fundamental values on this planet that are worth more than just 
making money in the short run. That is what we are trying to 
reaffirm here today. I thank you very much, Mr. Chairman.
    Mr. Smith. Thank you for that very eloquent defense of 
human rights. You have been indefatigable in your efforts, 
particularly in Asia, to try to promote human rights there, in 
Burma and elsewhere. I appreciate your comments. I would like 
to welcome our witnesses and ask them to take their seats. The 
record will reflect a fuller bio of each, but just let me 
introduce each of our witnesses today.
    Beginning with Ms. Lori Wallach, who is the director of 
Global Trade Watch, a division of Public Citizen, the 
organization founded by Ralph Nader in 1971. A graduate of 
Wesley college and Harvard law school, Ms. Wallach is also a 
founder and board member of the Citizens Trade Campaign. She 
has spoken and written extensively on NAFTA, GATT, and other 
trade issues and is considered truly an expert in those fields.
    Mr. Stephen Rickard is the director of the Washington 
office of Amnesty International USA. Previously, Mr. Rickard 
served as the senior adviser for South Asian affairs in the 
Department of State, as well as a professional staff member for 
the Senate Foreign Relations Committee Subcommittee on Near 
Eastern and South Asian affairs. Thank you, Mr. Rickard, for 
being here.
    Mr. Charles Wowkanech has served as the president of the 
New Jersey State AFL-CIO since his election in January 1997. He 
has been an active labor leader for the past 25 years. Before 
that, he served as secretary treasurer and as assistant to the 
president for that organization. A longtime participant in 
health care reform efforts, Mr. Wowkanech was also the chairman 
of the New Jersey Individual Health Coverage Program board 
which was established by law to implement insurance reforms and 
regulate the New Jersey health insurance market. Mr. Wowkanech, 
his wife Lu Ann, and their two sons, Charles and Michael, 
reside in Ocean City, New Jersey.
    Harry Wu is the executive director of the Laogai research 
Foundation. Harry has spent 19 years as a prisoner in the 
Chinese laogai in 12 different forced-labor camps. Released in 
1979, Mr. Wu came to the United States in 1985 as a visiting 
professor at the University of California at Berkley. Mr. Wu 
was arrested while attempting to reenter China in the summer of 
1995. Mr. Wu was arrested by the Chinese government, held for 
66 days, and sentenced to 15 years in prison before being 
expelled from the country as a result of an extensive 
international campaign launched on his behalf.
    Finally, Mary Beth Markey is the director of government 
relations for the International Campaign for Tibet, a nonprofit 
organization providing information on the situation in Tibet 
and urging a negotiated political statement of Tibet's status. 
A graduate of the College of William and Mary, Ms. Markey 
served for 8 years on the staff of the Senate Foreign Relations 
Committee, where she monitored human rights and refugee issues.
    Ms. Wallach, if you could begin with your testimony.

    STATEMENT OF LORI WALLACH, PRESIDENT, GLOBAL TRADE WATCH

    Ms. Wallach. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I am joined by a distinguished panel of experts on why 
granting permanent MFN for China as well as China's accession 
to WTO is a bad idea, so I am going to focus on the how and the 
what. Specifically, I am going to aim at what are some big 
misconceptions, I would say also some outright mendacities as 
to the role of Congress regarding this decision.
    The bottom-line reality of Chinese accession to WTO is 
there is simply no requirement that the U.S. Congress grant 
permanent most-favored-nation status to China either as a 
condition for China entering WTO or, if China has entered WTO, 
as a condition for the U.S. obtaining the potential reciprocal 
benefits of that agreement. As a legal matter, this decision as 
to what a country must do is set forth rather explicitly in the 
actual GATT, and it is updated in the agreement establishing 
the World Trade Organization. The language is unambiguous; it 
must be unconditional, most-favored-nation treatment 
reciprocally. There is simply nothing about the duration of 
that grant.
    Explicitly, to be very clear, neither in GATT nor in WTO is 
there a single rule that requires anything about duration nor 
specifically permanent most-favored-nation, nor does such a 
thing exist in GATT jurisprudence. In fact, the U.S. could 
choose to give weekly, hourly, daily, annual, biannual, 5-year, 
permanent, you choose it. It cannot cease and it cannot be 
conditioned on what, in GATTese, is called ``noncommercial 
performance requirements,'' i.e., you cannot write a statute 
that says we will check these three things and then extend. But 
you can do an annual review that is on all issues and give 
annual grants.
    Now, the reason I mention this is because the boosters of 
permanent MFN to some degree, I suspect, see WTO admission of 
China as an excuse to obtain what they really want, which is to 
stop the congressional reviews, as compared to how it is sold 
to the rest of us, which is the other way around, i.e., what a 
wonderful thing WTO admission, small little thing as permanent 
MFN.
    I believe that the reason, as a political matter, why the 
U.S. Congress must consider and review its legal options as to 
what kind of status to grant is because the record of Chinese 
noncompliance with its international, commercial and other 
agreements is an extreme and long one, not the least of which 
is the 1993 memorandum of understanding on prison labor, a 
whole series of intellectual property agreements. So for the 
U.S. Congress to have the leverage of having an annual review 
even with removing any explicit condition of continuation of 
MFN as a matter of obtaining some possibility of compliance 
with the agreement is very important.
    To this end, I want to add as another legal clearup point 
the threats by the Chinese Ambassador to the U.S. that China 
would deny the U.S. the benefits of the WTO deal absent a grant 
by the U.S. Congress of permanent most-favored-nation status 
is, depending on how you look at it, either, A, a meaningless 
threat or, B, if it were carried out, would be China's first 
violation of WTO rules. Because as a matter of fact, to the 
extent the U.S. grants reciprocal MFN and China does back, 
China cannot unilaterally decide to deny any terms of WTO to 
the U.S.
    Finally, two more technical correction points to add to the 
debate. The issue of accession. As a matter of the WTO and GATT 
procedures, at a point where the executive branches of the 135 
WTO countries by a majority of two-thirds approve a country's 
accession, a country is in. However, it is a totally separate 
decision what are the bilateral relations between any of those 
135 WTO members, which is why it is vital for the Congress to 
understand that separate from the issue of Chinese entry to WTO 
is the free will of Congress to determine the extent of 
duration of U.S. grants of trade benefits.
    Finally, on accession, all of those commitments that we 
have been told will get lost if the U.S. does not do as it is 
being requested by China, all of those commitments will be 
multilateralized. They will be part of the binding agreement of 
accession. All the countries of the WTO will get that benefit, 
or none of them will. It is not a special thing for the U.S. to 
do in payment for permanent MFN.
    Then finally, a little bit about the WTO provisions, and 
again we have heard a lot about how they could undermine the 
U.S. ability if China were to be a member to take action on 
human rights and religious freedom. I would like to be very 
explicit about what we are talking about. GATT article 1, most-
favored-nation treatment: you may not treat another country 
differently according to its conduct relating to human rights, 
proliferation, et cetera. GATT article 3: like products must be 
treated alike. That means physically similar products. This 
means you cannot distinguish things that are made with slave 
labor, with prison labor, with child labor. A shoe is a shoe no 
matter where it is made, in the PLA or in the U.S. in a union 
shop.
    The third key point to know is the agreement on government 
procurement to the WTO. These are the provisions under which 
the Burma case you have both mentioned arose. It explicitly 
forbids any country in spending its own tax dollars from 
considering any noncommercial consideration such as human 
rights, labor rights, religious freedom, et cetera.
    So, although there is still an outstanding question about 
what the Congress could do, not about MFN but about China's 
entry into WTO, you need to be very clear what the U.S. would 
be giving up. Under WTO rules, as we saw with the Japan case 
relating to Kodak film, once China is in WTO, the U.S. has lost 
its ability to use unilaterally any kind of sanction; and this 
includes all the issues WTO does not cover. You cannot change 
any tariff or quota that is bound by WTO even on issues such as 
in the Kodak case where it has to do with personal 
relationships between individuals and rules not covered. That 
is done. So a little bit of technical update and now I will 
enjoy listening to this distinguished panel on the merits of 
why. Thank you very much.
    Mr. Smith. Thank you, Ms. Wallach, for that excellent 
testimony and look forward to hearing your answers to some 
questions in a few moments.
    [The prepared statement of Ms. Wallach appears in the 
appendix.]
    Mr. Smith. Mr. Rickard.

   STATEMENT OF STEPHEN RICKARD, DIRECTOR, WASHINGTON, D.C. 
         LEGISLATIVE OFFICE, AMNESTY INTERNATIONAL USA

    Mr. Rickard. Mr. Chairman, it is an honor to have the 
opportunity to testify before your Committee today and 
specifically before you and Mr. Rohrabacher. Both of you have 
been among the most stalwart friends of human rights victims 
around the world for many years, and it is an honor to be here 
today. We are grateful to you for holding this timely and 
important hearing on the human rights in China and the issue of 
China's admission to the World Trade Organization. I would 
reciprocate Ms. Wallach's comment about being on the panel. I 
certainly appreciated very much her remarks and look forward to 
hearing from the other distinguished panelists as well. With 
your permission, my full statement would be included in the 
record and I will present a shorter version.
    Mr. Smith. Without objection, it will be a part.
    Mr. Rickard. As recent events in Seattle make clear, there 
is widespread concern about the World Trade Organization. Human 
rights activists are struck by many things about the WTO. For 
instance, we are amazed to see the United States 
enthusiastically embrace the World Trade Organization where 
U.S. laws can be judged and sanctioned by little understood 
panels while at the same time it refuses to support an 
international criminal court where the worst criminals in the 
world would be judged under procedures modeled on the Bill of 
Rights. Frankly, it is hard to understand why it is easier to 
protect copyrights than human rights. Why is there a court to 
protect Disney's rights to ``The Little Mermaid'' but no court 
to protect little children?
    Into this maelstrom comes the U.S. deal with China. 
Consider, at the same time that China is pledging to embrace 
the rule of law for commerce, it is waging a merciless and 
highly arbitrary campaign of repression against tens of 
thousands of peaceful Falun Gong adherents. The Information 
Center for Human Rights and Democratic Movement in China has 
reportedly estimated that as many as 35,000 Falun Gong 
practitioners have been detained. Many of them are being 
funneled into the reeducation-through-labor system, an 
administrative process with no due process rights.
    Amnesty has received reports of Falun Gong practitioners 
who have been beaten to death, tortured with electric cattle 
prods and by other means, and raped in custody. In a disturbing 
echo of Soviet practices, some have been taken to mental 
institutions. A copy of our report on the individual Falun Gong 
cases is attached to my testimony.
    I should be clear that Amnesty International takes no 
position on trade sanctions against any country as a matter of 
Amnesty policy. We neither oppose them nor support them and 
have never taken a position for or against extending most-
favored-nation status to China. We do believe, however, that 
effective human rights policies require consistency and 
credibility, and credibility means being willing to pay a price 
to stand up for human rights victims. It is almost never a 
question of whether U.S. officials care about human rights. It 
is a question of whether they care enough to be willing to pay 
a price and to be willing to fight for the victims.
    This explains why the annual effort to condemn China's 
human rights record at the human rights commission in Geneva 
and the annual debate in Congress over the human rights record 
in China continue to be important even when the ultimate vote 
goes in China's favor. They demonstrate to the Chinese 
government and to human rights victims in China that the human 
rights issue will not go away. In light of China's ferocious 
campaign against Falun Gong, its unrelenting repression against 
Tibetans and Uighers, and its failure to move forward in any 
meaningful way on the human rights promises it has already 
made, such as implementing international human rights treaties, 
Congress is clearly entitled to be skeptical about assertions 
that China's admission to the WTO will herald the dawning of a 
new age in China.
    I think it is significant and probably wise that U.S. Trade 
Representative Charlene Barshefsky has been very circumspect in 
making any such claim. For instance, she was quoted in the New 
York Times as saying, ``I am cautious in making claims that a 
market opening agreement leads to anything other than opening 
the market. It may, it could have a spillover effect but it may 
not. We have got to understand that.''
    In other words, there is nothing inevitable about trade or 
the WTO leading to human rights progress. Frankly, the recent 
news is not encouraging on the human rights front or any other. 
According to reports out of China, Chinese political officials 
recently severely beat a democracy activist because he spoke to 
a U.S. human rights official. Even on the trade front, Chinese 
leaders have rushed to tell other Asian governments that once 
China is admit to the WTO, it will stand with other Asian 
governments to reject and resist Western trade proposals.
    In other words, China tells the U.S. that engagements and 
friendship requires the U.S. work to have China admitted to the 
WTO while at the same time telling Asian governments that once 
admitted to the WTO, China will become a stalwart opponent of 
U.S. proposals. Without question, however, the period between 
now and the congressional debate on the China deal represents 
an opportunity for the Clinton administration to demonstrate 
that the tree of engagement can bear fruit.
    There are three steps that the Chinese government could 
take or at least set in progress immediately to demonstrate a 
genuine commitment to the rule of law and to fulfilling 
international commitments. First, the Chinese government could 
announce that it will review the convictions of every person 
serving a prison sentence for counterrevolutionary offenses. 
These are offenses no longer even on China's statute books, 
having been replaced by a new national security law.
    Second, China could announce that it will dismantle the 
reeducation through labor system. It is simply impossible to 
claim a commitment to the rule of law and simultaneously 
maintain a system that sentences hundreds of thousands of 
people without due process. Third, the Chinese government could 
move forward to ratify and fully implement international human 
rights treaties. All three of these steps go directly to the 
credibility of China's international commitments and its 
commitment to the rule of law.
    Now, there are of course many other critical human rights 
issues in China. Religion continues to be severely repressed 
throughout China. Just as the repression of Tibetans and 
Uighers and Christians has already demonstrated, the campaign 
against Falun Gong shows how extraordinarily fearful Chinese 
authorities are of any form of organized entity, however 
peaceful. To be frank, and speaking just for myself, I shudder 
when I read that implementing the U.S.-China trade agreement 
may cause millions of people to become unemployed in China. One 
western diplomat was quoted in the Washington Post saying that 
if China fails to create a social safety net for the 
unemployed, quote, ``things could get extraordinarily ugly,'' 
close quote. Indeed.
    I don't believe that governments can maintain social 
stability in the long run by cutting themselves off from the 
rest of the world and maintaining bloated state enterprises. 
But when painful change comes in a democratic society, the 
unemployed and the poor can hold leaders accountable and demand 
government policies that ameliorate their suffering. In China, 
the answer may instead be the cattle prod, the firing squad, or 
the one-way ticket to the Laogai. Remember, China is a country 
where people have literally been given the death penalty and 
shot for counterfeiting tax receipts.
    Mr. Chairman, you have many distinguished expert witnesses 
on human rights in China testifying today so I will not prolong 
my remarks. I look forward to hearing their testimony and 
answering any questions you or others may have. I have brought 
with me several recent Amnesty reports on human rights 
conditions in China including the campaign against Falun Gong, 
the situation in Tibet and in Xinjiang and others; and with 
your permission I would ask that they be made a part of the 
record of the hearing.
    Mr. Smith. Mr. Rickard, they will be made a part of the 
record, and I do thank you for your excellent testimony and the 
great work that Amnesty does in China and elsewhere around the 
world.
    [The prepared statement of Mr. Rickard appears in the 
appendix.]
    Mr. Smith. Mr. Wowkanech.

  STATEMENT OF CHARLES WOWKANECH, PRESIDENT, NEW JERSEY STATE 
                            AFL-CIO

    Mr. Wowkanech. Yes. Good afternoon, Mr. Chairman and 
members of the distinguished panel. Before I start my official 
remarks, I would like to say that I have given my testimony for 
the record. I plan to deviate from that somewhat today with 
some materials that I have brought from our home state of New 
Jersey. But before I start, I would like to congratulate you on 
the fine job that you have done over the years in your fight 
for the social and economic justice and human rights of workers 
around the world. I think it is unprecedented. I am deeply 
honored to be here in your presence, along with your colleague 
and Mr. Wu, and the other people here on the panel.
    With that, I would just like to say thank you, Mr. 
Chairman, and members of the Subcommittee, Mr. Rohrabacher, for 
allowing me to present the views of the New Jersey state AFL-
CIO and the 1 million workers that we represent on the 
inclusion of China into the World Trade Organization and the 
effect this and other U.S. trade policies would have on New 
Jersey.
    New Jersey's trade, economy, and the jobs of hundreds of 
thousands of New Jerseyans are threatened by China's impending 
accession into the WTO. China should not be allowed to 
capitalize on its human rights, worker rights, and 
environmental failings to the detriment of New Jersey working 
families. In 1998, the U.S. had a $57 billion trade deficit 
with China. In that year, U.S.-China trade yielded a grossly 
skewed import-export ratio with $71 billion in Chinese goods 
entering this country and only $14 billion in U.S. exports. 
This was a direct result of the normalized trade relations 
between China and the U.S.
    New Jersey has been particularly hit hard by the recent 
U.S. free trade agreements. In 1996, manufacturing employment 
in New Jersey fell below 500,000 for the first time since 1930. 
Free trade agreements with Canada, Mexico, and Europe have 
resulted in the loss of hundreds of thousands of American jobs, 
as businesses have relocated to exploit weak or nonexistent 
labor and environmental protections. In the wake of these 
agreements, corporate profits have grown while high-paying 
American jobs have been lost.
    The wage gap for American workers has widened. According to 
Business Week, in 1998, the average pay of an American CEO was 
419 times that of an average factory worker. When is enough 
enough? While corporate profits continue to grow, the working 
people of New Jersey are struggling to pay their mortgages, 
send their kids to college, and improve their overall economic 
standing. I would say for the record that back in 1995 and 1996 
while all this was going on, New Jersey was No. 1 in mortgage 
foreclosures, and New Jersey was ranked No. 1 in our Nation in 
businesses that were filing chapter 11. That is a direct 
correlation with the companies that I am going to talk about 
that are on that map of our great state of New Jersey that have 
left New Jersey for good.
    So while all this corporate world has been prospering, many 
have suffered. I want to state for the record that I am not a 
protectionist. I want to state for the record for those that do 
not know me in my position with the state federation, I have 
developed a fairly good reputation with the business community 
in our State. I work very hard with the casino industry in 
achieving a better regulatory climate for them to do business 
in our State. I have most recently worked with our 
congressional delegation here, with our shipping companies in 
our great port of Newark. I have worked with Continental 
Airlines with their quest for some $2.6 billion expansion in 
New Jersey. In 1985, I proudly worked alongside with the 
telecommunications executives in our state to make New Jersey 
the first state in the Nation to become wired for fiberoptics 
so that we could attract industry to our state and maintain the 
business that we had.
    So in my remarks, when I say some maybe-not-so-kind things 
about corporate America, I just wanted to enter that for the 
record that I am not a protectionist; I am not a person that 
goes around thinking that the working people should have 
everything and the business community should have nothing. I 
think I have demonstrated in my 10 years in this position that 
I have not been that way. The North American Free Trade 
Agreement has resulted in the loss of 400,000 American jobs in 
its first 5 years. New Jersey alone has lost more than 28,000 
to increased trade deficits. New Jersey's 1993 to 1996 NAFTA 
deficit was $2 billion. During the same period, wages in New 
Jersey dropped from $13.07 to $12.55 while inflation was on the 
rise. Again, this situation will only get worse upon China's 
acceptance into the WTO.
    At this time I would like to ask the panel as well as the 
members on the Committee to focus on the map. I don't know if 
you can see it, but this is a map that shows the spillage of 
blood of New Jerseyan and American workers in our state that 
started since 1985. The statistics that I am going to share 
with you today are not from Charlie Wowkanech or from the AFL-
CIO. They are from the New Jersey Department of Labor under the 
administration of Governor Christine Todd Whitman.
    In 1995 when our Department of Labor started to keep track 
of what was going on, 109 companies left our state for good, 
affecting some 11,752 workers. From that year on in each 
successive year, the number of companies has climbed and the 
number of workers out of work has gone up. In 1995 we totaled 
388 companies from 109 and 34,700 workers lost their jobs that 
year. Because of this map, as you can see, and the wear and 
tear on it--we have used it extensively in our state on these 
issues--our present administration decided to disband this 
department and not release these numbers anymore. But through 
our own internal monitoring, we would take an educated guess to 
indicate to you at this time in 1999 at the dawn of the new 
millennium that we are upwards of 500,000, and 3,500 companies.
    I want to direct your attention, Congressman Smith, Mr. 
Chairman, from New Jersey, because these names will ring a 
bell, and for Mr. Rohrabacher, they might as well. I want to 
start at the dawn of the century. A great individual by the 
name of Thomas Edison founded an incredible device called the 
light bulb. Here at the dawn of the new millennium, we cannot 
find a light bulb made in America. It is very difficult.
    Anheuser Busch, the king of beers, American eagle as its 
emblem, most recently decided to purchase $200 million and 
more, $200 million worth of their bottles from Mexico because 
of NAFTA. The immediate effect was two plants, one by the name 
of Ball Foster in Millville, New Jersey; and the other plant I 
don't have right now, but was in the state of Texas. In New 
Jersey, 2 weeks before Christmas, the employer came and told 
the 300 plus workers, ``We're closing the plant down. That was 
it.''
    Anheuser Busch decided to go with workers in Mexico who are 
going to be paid $7.50 a day as opposed to $18 an hour with 
health care benefits and pension. We cannot go on. We cannot go 
on like this. The garment industry, one of the industries that 
we think will most come under attack under China's acceptance 
into the WTO in New Jersey, presently our New Jersey Department 
of Labor indicates that we have 27,000 employees within this 
industry. That is also business owners, people who pay real 
estate taxes; most of these workers, these garment workers, are 
single mothers who work for decent employers, who provide 
health care and do those kind of things. They cannot compete. 
They cannot compete with China with the situations that you 
have heard described from this body, with the egregious 
offenses that are taking place. It is going to wipe this 
industry out.
    This is going to have a cascading effect on unemployment, 
on welfare, on the tax base. We now have towns in our State 
which I am sorry to admit to you here in Washington D.C. where 
the principal industry is hospitals and police stations and 
jails.
    This has gone far enough.
    One final note. As indicated in your opening remarks, the 
father of two children, a 5-year-old and a 7-year-old son who I 
want the same great things for as you-all do, and my father and 
mother for me. Both boys are fans of the United States Navy and 
big ships. So my wife and I thought it would be appropriate 
this summer, not only to make the connection to their education 
and to the history of our great country, nothing would be more 
fitting than to take them to the United States Naval Academy 
where you see the father of our Navy, John Paul Jones, who was 
entombed in the chapel. You see the flags and artifacts, 
cannons and swords from great battles. When they take you on 
the 2-hour walking tour, they tell you about the Academy and it 
develops the leaders of the future, both intellectually and 
morally, and the history of our country and the honor and the 
duty to serve.
    At the end of the tour, they bring you to the gift shop, 
like most tours, and you have tears in your eyes and you are 
looking at other people in the tour and you just can't believe 
how proud you are to be an American and what has taken place in 
our country. Then you see hats and shirts and beach bags and 
coffee mugs that are all made in China, El Salvador and 
anyplace that you can imagine. But I stayed there for an hour 
and couldn't find anything made in the United States of 
America.
    I say to this Committee, that has to stop. This can't go 
on.
    Also for the Committee, I would have brought a lot more, 
but I have shirts and other garments that are produced in our 
own great state of New Jersey, and I am embarrassed to show 
this to you. You can go on a New Jersey Turnpike or the Garden 
State Parkway, and again you can stop in a gift shop and you 
can purchase a baseball cap just like this one here and the 
ones I have in front of you, that the State of New Jersey buys, 
that when you flip over the tag you see ``Made in China,'' no 
codes, no FTC regulations. We have no idea where this stuff 
comes from in China, if they are from indentured workers or 
prison workers. It sells, here's the price tag, for $14 
dollars.
    I can't believe a New Jersey-based company or an industry 
that has 27,000 workers cannot produce these hats. They can.
    It is an issue of corporate greed. The situation has gotten 
out of control, and I would ask this Committee to consider some 
of the recommendations that I am going to put before you this 
afternoon, as well as my own great President, John Sweeney, of 
the national AFL-CIO, because I am troubled. I am troubled by 
getting calls from workers in our State--a wife will call me 
and tell me her husband has committed suicide because their 
industry is gone, they have gone through retraining, and they 
can't find a job. They realize that when they are told this is 
a global marketplace we must compete in, they don't want to 
compete against kids. They don't want to compete for 17 cents 
an hour. They don't want to compete against the Mexico bottle 
workers for $7.50 a day.
    So I offer these suggestions to you for your consideration. 
One, the State of New Jersey and I think the Federal 
Government, as Mr. Rohrabacher has said--I think the United 
States of America and the Federal Government must lead the way. 
We are the nations' leader, the most industrialized nation in 
the world. As we see in New Jersey with the purchase of these 
goods with taxpayers' money, I say the Federal Government, 
right here in the Capitol building in its souvenir shop or at 
our national parks or anything else that the United States of 
America owns, there should be some prevailing wage concept. As 
we have in the building and construction arena, where it 
creates not protection, it creates a level playing field where 
people who are bidding on these types of garments for the State 
of New Jersey or for the U.S. Government know that they can't 
buy these goods where they are manufactured with these type of 
egregious conditions. I think that is something for your 
consideration.
    I also would ask that something to the effect of an 
international advisory council. I watch on TV with great 
interest that the U.N. is allowed to go in behind the scenes 
and look at the reduction of arms. We are fighting the same 
war. It is not about missiles and chemical warfare. It is an 
economic warfare. Somehow a commission must be formed with 
human rights leaders, with labor leaders, with corporate 
America at our side as partners, that must look at what is 
taking place; and if these countries do not want to live up to 
a standard and level playing field, then they should not be 
allowed to do business here. We should not open our 
marketplace.
    I know the political reality of that is difficult to 
achieve, but that is by far the most simplest thing to stop 
this thing right now.
    But I think another suggestion worthwhile looking into--and 
again to my good friends on the other side of the aisle in the 
corporate board rooms who have shown through their own efforts 
that they cannot police themselves, that the situation is out 
of control, that it is more important at 4:30 this afternoon 
what the closing is on the New York Stock Exchange, as opposed 
to what is going on inside their factories and plants, I think 
there has to be some sort of a Federal industrial retention 
commission to look at these violators, whether they be United 
States companies or not, that intentionally move companies from 
United States soil and New Jersey and move them to foreign 
shores to exploit workers. They leave towns and communities in 
total devastation, and they leave the taxpayers of that state 
to pick up charity care for health care because now people 
don't have health care. The welfare rolls, unemployment, I 
think that these companies have to be held accountable. They 
can't police themselves. We can't let this go on.
    So I offer those suggestions to you with the hopes that out 
of this meeting and subsequent meetings I know you plan to 
have, Mr. Chairman, that some sort of Federal guidelines or 
legislation incorporating all of the things that this panel is 
going to offer us today would be something that we all could 
get behind to support and stop China from achieving acceptance 
into the WTO, and most assuredly we oppose their Most Favored 
Nation clause, and we would do anything to work with you or any 
of these constituency groups around here to deny that happening 
within this administration.
    So at this time I yield to my great friend, Mr. Wu, and 
would be open for questions at any time.
    [The prepared statement of Mr. Wowkanech appears in the 
appendix.]
    Mr. Smith. Mr. Wowkanech, thank you very much for your 
testimony. You have raised a number of action items that we 
will very seriously consider and try as best we can to act on 
in the coming months. Looking at your chart--when you brought 
that into my office this morning, the thought that occurred to 
me was that if a battlefield commander--who often, as we know, 
puts flags on a map where the different troops might be--had 
those kinds of losses, he would be fired. That may just be New 
Jersey, but that speaks for every one of the 50 States 
throughout our country. Hopefully, Americans will begin to see 
that while humanitarianism in and of itself should be enough to 
make us sensitized to these egregious abuses around the world, 
like in China, there is also a direct impact and a very 
negative one on their livelihoods and on their jobs and on 
their quality of life.
    There is some self-interest that needs to be gotten out 
there so that the American public takes ownership of the human 
rights issue, because it does negatively affect them both 
medium- and long-term; and that certainly makes the case, I 
think, very dramatically, and I thank you.
    Mr. Wu.

  STATEMENT OF HARRY WU, EXECUTIVE DIRECTOR, LAOGAI RESEARCH 
                           FOUNDATION

    Mr. Wu. Mr. Chairman, Congressman and ladies and gentlemen, 
it is my honor to testify before your Subcommittee.
    Today, we are standing at a historical crossroads. Down one 
path lies a United States chasing after market access in China 
and talking about human rights, but only acting on trade deals. 
Down the other path is the chance to have a principled foreign 
policy in relation to Communist China, one based on American 
values and national interest.
    For the most part, the United States has been moving 
steadily down the first road, kowtowing to the business 
interests and using all of the U.S.'s negotiating abilities to 
push for business deals. The WTO agreement is supposed to be a 
major milestone on this road. It has long been fashionable to 
think, ``What is good for Wall Street is good for the United 
States,''. But we must also realize that this deal gives a 
timely boost to the Chinese Communist leadership. This blood 
transfusion to a dying Communist regime is both unwise and 
unnecessary.
    Faced with a stagnating economy and sagging exports, the 
Chinese Communist Party desperately needs increased foreign 
investment and guaranteed access to foreign markets, with no 
threat of bilateral sanctions. This deal gives just that to the 
Chinese dictators, increasing their authority and claims to 
legitimacy.
    The Chinese leadership has not proven to be a reliable 
partner in its international dealings. Its human rights abuses 
violate the United Nations treaties it has signed, and it 
continues to violate trade agreements by dumping and by 
exporting forced labor products. Mr. Chairman, I promise you 
that in the next spring I will come back here to tell the 
American people what is the truth of the forced labor products 
imported into the United States.
    The current crackdown on the Falun Gong is a sad but 
perfect example of how the Chinese Government treats its common 
citizens. The Beijing government actually supported Falun Gong 
when it first started to flourish in China. The Communist Party 
realized that China is facing an ideological crisis: the people 
do not have faith in the party as they once did. Falun Gong 
seemed like a harmless way to fill this ideological vacuum. Let 
them meditate. It is much better than meeting to discuss 
politics or Christianity or unemployment. Then slowly, the 
Falun Gang yellow book became more popular than Mao's the red 
book. It seems that millions of Chinese today have found a new 
bible; the yellow replaced the red.
    But Falun Gong quickly became a nationwide and organized 
movement, and that, the Beijing government could not tolerate. 
The Chinese Communist Party does not allow any organization 
except itself to have nationwide structures, regardless of the 
organization's purpose. For example, if you want to collect 
matchbooks in New Jersey, you can organize an institution. If 
someone has the same purpose, same interest, you can have an 
institution in California, but you cannot have a nationwide 
institution to just collect match books. It is not allowed by 
law.
    So, in retaliation, the Beijing government declared Falun 
Gong a cult and is arresting members by the thousands on 
charges of spreading superstition or subverting the government. 
Now, if you look into the yellow book, it does not discuss 
subverting the government, and it does not advocate any 
violence. It does not say that the end of the Earth is coming. 
Rather, it is talking about an individual's spiritual health 
and demonstrates how to do proper breathing exercises.
    Like any totalitarian regime, the Chinese Government is 
paranoid. It considers these people a threat and will treat 
them as it does any threat, by cracking down quickly and 
completely. Lawyers in China today have been instructed not to 
represent these people, showing that the Chinese Government 
will easily break its own laws.
    But remember, there are many American academics today 
talking about legislative reform in China. It seems to them 
this is a kind of good progress.
    The members of Falun Gong were detained, tortured and sent 
to the labor camps, and it is reported that over 35,000 people 
have been detained since the crackdown began in July. Today, a 
new crackdown is starting on another group that practice 
traditional breathing, Zhong Gong. So far 100 members have been 
detained. These arrests continue even as China receives the 
Secretary General of the United Nations. This is another shame 
of this United Nations organization.
    The Chinese Government just released a new law, declaring 
that any gathering, baseball games or basketball games or any 
concert, if there are over 200 people, must be approved by 
public security. The law was issued November 24, 1999. The 
Chinese Communist Party is fundamentally threatened by any 
popular group, students who want an end to corruption, workers 
who want their pensions or independent unions or even middle-
aged women practicing meditation exercises in the park.
    The Chinese Communist Party will grow richer and stronger 
from--if approved for WTO membership. Part of its new wealth 
will go to upgrading its instruments of authority: the police, 
the military and the labor camps. Foreign investment will help 
them crack down on the Falun Gong more efficiently, and it will 
help them harvest organs from the death row prisoners with 
better technology.
    There is also the question of national security. Congress 
should, when it considers permanent NTR status for China, put 
this agreement under a national security microscope. The 
relationship between a lack of democracy, economic growth and 
Chinese military expansion is a serious one and must be closely 
examined.
    From a human rights standpoint, granting China permanent 
NTR will give them the green light, a green light to continue 
the abuse their citizens. That action will tell the dictators 
in China that the United States will ignore the horrible way 
the Chinese people are treated as long as markets are open to 
trade and foreign investment.
    Perhaps 1 day the U.S. Government will try to promote human 
rights in China with the same zeal that it runs after market 
access. I hope so. Maybe 1 day a President of the United States 
will use his or her private line, red line, with the Chinese 
Communist leader to promote human rights, to show that the 
United States is serious about freedom and democracy. Today, 
that responsibility rests with the Congress.
    Thank you.
    Mr. Smith. Mr. Wu, thank you very much for your very 
incisive testimony, and for making the considerable effort to 
get here, having been in Korea just recently and having changed 
your plans to come and appear before the Committee. We are very 
appreciative of that.
    [The prepared statement of Mr. Wu appears in the appendix.]
    Mr. Smith. Before I go to Ms. Markey, I would like to just 
recognize that Eni Faleomavaega is here, and if you have any 
opening comments, I say to my friend----
    Mr. Faleomavaega. Mr. Chairman, I don't have an opening 
statement, but I do want to thank you for your leadership. It 
has always been the case in our workings of the Committee, of 
the Subcommittee, and it is quite unusual, given the fact that 
the members are not here. But I am really, really happy that 
you were able to call this Committee and have our friends from 
the NGO's.
    Unfortunately, none of the administration people could make 
it to the hearing, but hopefully maybe next month we definitely 
will call them up to consider more examination of what happened 
at the WTO meeting in Seattle. We definitely will be following 
up on this, and I do look forward in hearing from them.
    My apologies for those witnesses who have already 
testified, but I am going through their statements and really 
appreciate their input in the process.
    Mr. Smith. I want to thank my friend and just point out 
that events don't wait on the congressional schedule, and one 
of the nice things about this Subcommittee is that we meet all 
12 months, and when events so dictate. Certainly the imperative 
that we now face with regard to the massive effort that has 
been announced again, as recently as yesterday, by the 
administration and business leaders for permanent MFN requires 
this meeting.
    Ms. Wallach, I think, pointed out some very, very important 
myths that need to be gotten out there with regard to whether 
or not permanence in MFN is actually required, and that is 
something we will get into during the Q and A.
    Mr. Faleomavaega. If the Chairman would yield further, in 
the 10 years that I have served as a member of the 
International Relations Committee, again I want to commend you, 
Mr. Chairman, for your leadership and especially on the issue 
of human rights, not only in substance and depths of what we 
have tried to do over the years with China, but as well as 
other countries of the world. I think now we are beginning to 
see at this most critical moment how not just the more 
prosperous countries but every country of the world, there has 
got to be a sense of greater equity and fairness in the process 
when we talk about economics and trade; and I am very, very 
concerned, if this is the way that we are to proceed.
    But more than anything, Mr. Chairman--again, I want to 
thank you sincerely for your leadership on the issue of human 
rights; I think there is no other Chairman in my experience in 
serving on this Committee who has provided that kind of 
leadership. It has not only sensitized our national leadership, 
but certainly leaders of other countries to know that we are 
dead serious about this, even though in the past years we have 
somewhat waffled. Sometimes we think about human rights, 
sometimes we don't.
    But with your leadership, Mr. Chairman, I want to commend 
you, and I certainly will continue to give you all the support 
I can as a member of this Subcommittee, because it touches on 
every aspect. When we talk about social economic issues, we 
cannot neglect human rights, and I think this is something we 
ought to pursue. I look forward to continue working with you 
along those lines.
    Mr. Smith. Thank you very much for those comments.
    Ms. Markey.

     STATEMENT OF MARY BETH MARKEY, DIRECTOR OF GOVERNMENT 
          RELATIONS, INTERNATIONAL CAMPAIGN FOR TIBET

    Ms. Markey. Thank you, Mr. Chairman, for the opportunity to 
testify before the Subcommittee this afternoon. It is always a 
pleasure to hear your edifying remarks on human rights, and if 
my memory serves me, Congressman Faleomavaega, you are one of 
the small number of Members of Congress who have made that 
difficult journey up to Dharmsala, India. I think it may have 
even been during the monsoon that you went up there. That is 
the seat of the Tibetan Government in exile, and I am sure that 
was an exciting experience for you. I hope my remarks on Tibet 
will be interesting in that light.
    Like many of our fellow activists in the labor, 
environmental and human rights communities, the International 
Campaign for Tibet believes that the World Trade Organization 
has both the potential internationally to liberalize economies, 
a good thing; and to promote an ethic based on the accumulation 
of transnational corporate wealth which ignores democratic 
principles, hard-won economic safeguards and basic human 
rights, which is very bad, and the basis of our opposition to 
an unregulated WTO and to China's accession at this time.
    The International Campaign for Tibet calls on the U.S. 
Congress to see the coming debate on China's WTO membership and 
permanent NTR status as an opportunity to consider carefully 
the WTO's potential and proclivity to address human rights 
abuses and then to use this opportunity of maximum leverage to 
extract meaningful human rights concessions from China.
    The Congress need not be a rubber stamp for this 
administration's investor-based trade priorities, especially 
with regard to the China market. Our Nation has many serious 
concerns with China, human rights and the situation in Tibet 
being just two that are systematically dismissed by Beijing. 
The U.S.-China human rights dialogue is shut down, as Chairman 
Smith has pointed out, although other countries continue to 
meet bilaterally to discuss human rights. The Washington Post 
reported yesterday, as Chairman Smith pointed out, that Beijing 
will not even accept our human rights demarches and, as a new 
protocol, insist that they must be delivered to the embassy 
here in Washington.
    Appeals to Chinese leaders from heads of state the world 
over to begin dialogue with His Holiness the Dalai Lama are 
routinely answered with Chinese histrionics.
    In Tibet the use of prison labor in economic development is 
openly stated policy. Prisoners forced to work in prison 
greenhouses fall ill from pesticide exposure. Torture is 
routine. Patriotic reeducation continues in monasteries.
    Popular resistance against hard-line policies on religion 
and against the Dalai Lama continues. In Lhasa in October, 
Tashi Tsering who attempted to raise the banned Tibetan flag 
during the national minority games, was severely beaten and 
died of his injuries in detention.
    Tibetan homes are routinely searched for evidence of 
``splittist activities.'' officials demand loyalty to the unity 
of the motherland and caution against the infiltration and 
sabotage of foreign hostile forces.
    Ngawang Sandrol, a nun first arrested when she was just 13 
years old, is serving her 10th year in prison and has just 
received a third term extension, which means she will serve a 
total of 21 years in prison for singing songs of her love for 
Tibet and His Holiness the Dalai Lama. According to the Tibetan 
Information Network in London, a female prisoner in Lhasa's 
notorious Drapchi prison, based on current information for 
records with adequate data, has a 1 in 20 chance of not 
surviving the consequences of imprisonment.
    China is silent to requests from U.N. Officials and 
agencies and from numerous government, religious and 
humanitarian delegations to meet with the young Panchen Lama. 
This little boy, held captive since he was 6 years old, goes 
missing--an alarming report on a Chinese Internet site 
suggested that he died in Gansu province and was cremated in 
secrecy. For 4\1/2\ years, since May 1995, the United States 
has raised his case with Beijing. Assistant Secretary for Human 
Rights Harold Koh has requested to see him as part of the 
resumption of the bilateral human rights dialogue.
    Here, Mr. Chairman, I beg your patience to address a 
terrible flaw in the U.S. position on the Panchen Lama that is 
germane to this discussion today. While the issue of religious 
freedom has been elevated to a priority among rights in our 
State Department, an ambassador at large and a commission on 
religious liberty named, our government has taken an 
equivocating position with regard to the authority of the Dalai 
Lama to recognize the reincarnate Panchen Lama. The Panchen 
Lama is referred to by our foreign policy establishment as the, 
quote, ``Panchen Lama recognized by the Dalai Lama.'' since the 
Chinese Communist Party leadership chose another boy to replace 
the kidnapped child, our government refers to him as the, 
quote, ``Panchen Lama appointed by the Chinese.''
    Of course, the Chinese Communist Party has no right of 
primacy on any religious issue. Nonetheless, the administration 
is providing Beijing cover with its ambiguous approach. This is 
wrong. Would we hesitate to recognize the choice of a Pope by 
the College of Cardinals in Rome? Is a mullah not a mullah 
because we quibble with his politics? How can we, the United 
States, advocate on behalf of religious freedom and accept that 
the Communist Party, the antithesis of a religious body, has a 
legitimate role in naming the eleventh Panchen Lama of Tibet?
    It is precisely this kind of conflicting signal that doomed 
to failure the 1993 executive order on MFN, and we should guard 
against mixed signals with respect to permanent NTR.
    Whether we fight the NTR battle annually or permanent NTR 
is phased in as China moves into compliance with WTO rules, the 
Clinton administration and the Congress must accept the 
challenge of devising a tandem human rights/permanent NTR 
strategy and commit together to its implementation.
    U.S. business, which has failed utterly to use its 
privileged access to China and Chinese leadership to promote 
human rights principles, will likely not ally itself to this 
strategy. However, it is past time for them to play a 
responsible role in exporting the commodity of democratic 
values.
    Mr. Chairman, the International Campaign for Tibet, with 
the support of several environmental groups, has for the past 
months been engaged in a battle with the World Bank over a plan 
to move some 58,000 mostly Chinese settlers onto the Tibetan 
plateau. The World Bank project, if implemented, threatens to 
do serious damage to Tibet's fragile high altitude ecosystem 
and will further dilute the Tibetan population and culture. The 
Bank has argued from the beginning that the politics of this 
project are not the Bank's responsibility; in other words, the 
transfer of large numbers of Chinese farmers onto traditional 
Tibetan lands, hastening the sinocization of Tibet, need not be 
considered by Bank project planners in Beijing or Bank 
headquarters here in Washington. Fortunately for the Tibetans 
in the project area, there is a mechanism for redress at the 
Bank, the Inspection Panel, and the International Campaign for 
Tibet has submitted a claim against the project on their 
behalf.
    Destructive environmental decisions from the WTO have 
similarly been interpreted as outside the scope of the WTO's 
responsibility. A platform for labor rights is being resisted 
as well, and unlike the World Bank, there exists no mechanism 
for transparency and redress. It is therefore not difficult to 
imagine development or natural resource exploitation in Tibet 
made possible by the politics of sinocization and giant 
transnational corporations that Tibetans would oppose, but are 
powerless to stop.
    Though China's membership in the WTO might eventually 
pressure the leadership to open its doors to outside 
monitoring, there is currently no WTO mechanism to perform 
oversight and certainly little evidence to support the hopeful 
position that China would accommodate it. Opening Tibet to 
unregulated foreign investment more likely would promote more 
Chinese migration into Tibetan areas and challenge efforts for 
appropriate development designed to benefit the Tibetan people.
    Mr. Chairman, Tom Hayden, a former protester of some 
renown, suggested that the new generation of activists that 
protested in Seattle represent the breakthrough of their 
generation into a public effort to challenge the systems. The 
International Campaign for Tibet has seen how our own movement 
has been propelled by young people. Their priorities, by 
nature, are hopeful and forward looking. It is very much a new 
world order they seek. While they may have only shut down the 
WTO meeting for a short while, I am confident that they will be 
back and ready to play an active role in the debate early next 
year on permanent NTR for China. I would caution big business 
not to declare victory as yet.
    Finally, Mr. Chairman, I hope the Congress will look into 
how the Seattle protesters were treated by the police during 
the demonstrations and in custody. As an American who speaks 
out against the atrocities perpetrated by Chinese police and 
security officials against peaceful Tibetan demonstrators, I 
was appalled by what I saw on television and heard from some of 
the protesters themselves. Again, I take note of John 
Pomphret's piece in yesterday's Washington Post. In response to 
U.S. warnings that a resolution critical of China might be 
introduced at the U.N. Human Rights Commission in Geneva, 
Pomphret quoted a Chinese official as saying, quote, ``After 
what happened in Seattle, how could you do this with a straight 
face?'' end quote. Thankfully, those protesters in Seattle have 
recourse through the legal system and public opinion. That 
would be my answer to the Chinese official, but it was still a 
shameful display of intolerance and abuse of power.
    Thank you again for this opportunity, Mr. Chairman.
    Mr. Smith. Than you very much, Ms. Markey, for your 
excellent testimony.
    [The prepared statement of Ms. Markey appears in the 
appendix.]
    Mr. Smith. Let me make just a couple of points and then go 
to a couple of questions. We had invited some other witnesses 
to be here, including some from the administration. Ms. 
Barshefsky had been asked and admittedly was on relatively 
short notice, and she was obviously very busy with the events 
leading up to and then certainly in Seattle. We will renew that 
request and hopefully hear from the administration, from Mr. 
Roth and from Secretary Harold Koh as well.
    They were all invited to be here, and they chose not to be, 
but again giving the benefit of the doubt, perhaps it had 
something to do with fatigue having been part of that whole 
process in Seattle,and we will renew that invitation to them.
    We also invited Wei Jingsheng, who is out of the country, 
but he did send a letter. I will read a portion of it because I 
think it is very, very powerful. As we all know, he was a 
leader of the democracy movement, and like Harry Wu, spent a 
significant portion of his life behind bars because of his 
belief in human rights and human freedom.
    ``Dear Congress: Make no mistake about it, the current 
mistake in China is very grave,'' he writes. ``as witnessed by 
the recent Falun Gong crackdown, the ongoing suppression of 
religious freedoms, the oppression of independent labor unions 
and the continued imprisonment of democratic activists like 
myself, whose only crime was to openly express their opinions, 
the Chinese Communist regime continues to trample on the human 
rights of the Chinese people.
    ``Following America's profuse and repeated apologies for 
the bombing of the Chinese embassy in Belgrade last May, the 
Communist Party leadership has only increased its attitude of 
defiance. Chinese language newspapers have published sources 
stating that in a recent meeting with Chinese military 
officials, President Jiang Zemin ordered an increase in the 
speed of military development and scoffed that a so-called 
close strategic partnership with the United States was 
impossible.
    ``He said this at a time when the United States should 
choose to award the Communist regime with a sweetheart deal to 
join the WTO is utterly inconceivable. WTO membership, 
obviously a goal coveted by the Chinese regime, is a bargaining 
chip that should not be given away without receiving 
significant concessions on human rights, financial sector 
reform, workers' rights and freedom of speech.
    ``It appears this administration is more worried about 
getting its name in the history books than about promoting the 
principles of democracy.
    ``With the entry of China into the WTO now appearing 
inevitable, the U.S. must find a way to continue the annual 
debate on China's NTR status. If NTR were made permanent, the 
U.S. Would forfeit its final effective weapon for applying 
pressure on the Communist government, who would then be free to 
violate the human rights of the people unhindered by the threat 
of U.S. sanctions.
    ``As one who has spent more than 17 years in Chinese 
prisons, I can tell you that international pressure has a 
direct impact on human rights in China. When in jail, I could 
always judge the current state of affairs because there was a 
clear and inverse relationship between my treatment and the 
state of American-Chinese relations. The more tense things 
became, the better I was treated in prison. The friendlier 
things became, the worse I was treated.
    ``As the leaders of the democratic world, it is your 
duty,'' he writes, ``and in your best interest to promote 
democratic principles around the world. You must not forsake 
the friends of democracy in China by giving away WTO membership 
and permanent NTR status to dictators who continue to violate 
their citizens' human rights. Wai Jingsheng, December 8, 
1999.''
    I would like to begin by asking Ms. Wallach, in looking at 
your statement--and it is probably one of the most provocative 
things that will come out of this hearing, and that is the 
shattering of the myth based on your legal analysis that 
permanent MFN is not required for the U.S. to benefit from 
China's WTO accession. You spoke of the issue of duration as 
opposed to the annual versus permanent. I have read three 
separate analyses by two different authors from the Library of 
Congress who suggest that permanent MFN is required. The 
President's assumption, and I assume his legal assumption, or 
that of his legal counsel, is that permanent MFN is required, 
although no one has said absolutely at the White House. So 
maybe they are just saying this is the chance to slam-dunk it 
under the guise of the WTO agreement.
    Could you perhaps elaborate on that issue, if you would, 
and any of the other panelists who might want to speak to it? 
Are there any other countries who are members of the WTO that 
do not have permanent MFN that would be an example underscoring 
your point?
    Ms. Wallach. What the GATT agreement requires in Article 
I:1 is, with respect to customs duties and charges of any kind 
imposed on, or in connection with, importation, exportation, 
blah, blah, blah, any advantage, favor, privilege or immunity 
granted by any contracting party to any product originating in 
or destined for any other country shall be accorded immediately 
and unconditionally to the like product. That is the only 
language, ``immediately and unconditionally,'' as to the grant 
of Most Favored Nation status. As a factual matter, the record 
in history, there are two points. First, in fact there has been 
no jurisprudence when there have been annual grants saying that 
that is not allowed; and second, there have been annual grants 
of MFN to GATT members.
    The untested case is, what about an unconditional annual 
grant. The U.S., for instance, has granted annual MFN to all of 
the previous Soviet satellite states as they have come into 
GATT. Romania still has it, et cetera, and the former 
Yugoslavia came in that way. Currently, Czechoslovakia still 
has it, but it was done under a waiver provision because it was 
done as a waiver of Jackson-Vanik.
    If the U.S. Congress either amended the Jackson-Vanik 
amendment to take out the clause that requires a conditionality 
based on freedom of immigration or, alternatively, Congress, as 
a freestanding piece of legislation, simply granted a year of 
Most Favored Nation status to China with a renewal process that 
would not allow for it to expire in between--i.e., like we do 
now where there is notice there is a month overlap and absence 
to vote it just goes on for another year--there is nothing in 
the GATT rules, the WTO rules, nor literally the precedents and 
history of the institution that would forbid that. I have seen 
those memos, and those are basically memos that are putting 
arguments with no legal, factual, WTO law basis to what is 
clearly a political push for a particular outcome, but there is 
no legal or factual basis to that, and in fact, there is 
precedent to the contrary.
    Mr. Smith. I appreciate that insight. Would any other panel 
members want to touch on that? I mean, that is something we 
need to look at very, very seriously.
    As a practical matter, while Jackson-Vanik is very narrowly 
written with regard to freedom of immigration, going back to 
the years of Romania especially--because I was one of those who 
led the effort to try to suspend MFN to Romania because of 
Ceausescu's horrific record on human rights, torture and 
religious persecution, as a matter of practice--we were able to 
expand the consideration even though technically it only 
applied to immigration.
    So your point to that, if that were out, it wouldn't 
necessarily mean that we don't look at the whole spectrum of 
human rights with a microscope, and I think it is room for some 
very serious thought as to how we might proceed.
    It is also important, I think, to shatter that myth, 
because I didn't find citations to back up the Library of 
Congress Permanet MFN analysis I kept looking for footnotes 
that would go into further detail and they weren't there. 
Hopefully, the news media will take note of this because the 
administration is making it as if it is a given, an absolute 
given, that permanent MFN is the prerequisite to WTO affording 
the benefits between the U.S. and the PRC; and I think you have 
held up a stop sign and said, wait a minute, the law doesn't 
say it. That is very, very helpful.
    Ms. Wallach. If I may just add.
    Mr. Smith. Yes, please.
    Ms. Wallach. The political fact of this legal reality is 
that the U.S. Congress could take a step that would make sure 
that whatever benefits might accrue commercially under WTO 
accession by China would be fully obtained by U.S. interests, 
while at the same time maintaining the leverage that they 
currently have unlimited, though not added to, which you and 
others have suggested would be necessary; but you would 
preserve the status quo by being able not literally to 
condition continued MFN on a particular thing, but rather the 
knowledge that every year the Congress, the press, the U.S. 
public will have a look, and there is that possibility, but 
meanwhile, all the commercial benefits would be allowed.
    Mr. Smith. Let me ask you about point No. 5, in your 
testimony. You know Harry Wu and everyone here have spoken out 
against prison labor very effectively. Harry actually suffered, 
as we all know, in the laogai. You point out that a technical, 
legal consideration about China and WTO is the new powers and 
rights China would obtain as a WTO member, as against the U.S.
    Most simply, WTO rules forbid countries from banning goods 
made with child or forced labor and also forbid countries to 
treat other WTO members differently according to their human 
rights, weapons proliferation and other noncommercial behavior. 
If this all happens the way the administration would like, it 
is your view that if we wanted to ban the importation of child-
made goods or if the Smoot-Hawley provisions on prison-made 
goods were being effectively implemented, that that would all 
become moot?
    Ms. Wallach. In fact, the way to look at the WTO, as 
compared to the GATT with the WTO, is it sets constraints on 
government action in a wide array of areas, and in the areas 
laid out in my testimony, particularly the ability of 
policymakers to differentiate goods not on the basis of where 
they are from, no, you must not discriminate, but on how they 
were made has also been taken away under Article III and now 12 
years of jurisprudence.
    It is the same jurisprudence that, for instance, the U.S. 
lost our Marine Mammal Protection Act. Tuna is tuna. It doesn't 
matter if it is caught in a way that kills dolphins or in a way 
that is dolphin safe; and to be very explicit about the child 
labor point, in fact, in 1993, when the Uruguay Round was being 
debated, U.S. Senator Metzenbaum and I believe, at that point, 
U.S. Senator Harkin had the Congressional Research Service 
review a piece of legislation they were about to introduce 
after the State Department had informed me that their child 
labor ban, implementing the existing rules of the ILO for the 
U.S. market, was a violation of GATT; and there is a CRS memo 
of 1993 making very explicit that in fact such government 
actions are forbidden.
    To add to it--it is a complicated matter--there is under an 
exception generally of GATT relating to national security some 
specifically enumerated things on which you can take actions 
that would otherwise violate the World Trade rules; and because 
child labor, forced labor, slave labor is not specifically 
enumerated, while many other things are, the interpretation in 
the trade bar, as well as by the CRS, is that those things are 
specifically permitted.
    Mr. Smith. So a perverse outcome of this could be that the 
Chinese Government or other governments that routinely use 
sweatshops, underpay their people, don't have any kind of 
working conditions that would even come close to comporting 
with international, ILO-type standards, they would be in the 
offensive/protagonist position of bringing action against the 
United States or any other power or country that sought to 
protect basic human rights, which makes this issue even more 
ominous than some of us have realized.
    I mean, that final point that you make, I have been 
introducing child labor bills with sanctions for years, only to 
have the administration say they just, as a matter of policy, 
disagree with sanctions. But now you are saying that we would 
be liable to activity under the auspices of the WTO. That is 
frightening.
    Ms. Wallach. I will submit for the record the CRS memo. I 
have also done a more detailed legal analysis of it, but by way 
of extension, for instance, the ILO treaty, I have to mention 
this because this wins the hypocrisy of Seattle award. The ILO 
treaty that was signed with great trumpets and banners on the 
abuse of forms of child labor at the Seattle ministerial, the 
implementation of it is a violation of the WTO; and in fact, 
the Government of Pakistan has an informal demarche; not an 
actual filing at WTO, but a state-to-state cable of some legal 
significance has noted that if the U.S. were to ban importation 
of child labor products, it would take action.
    The way that this works, as some of my colleagues have 
mentioned, is, the WTO is simply an enforcement body for what 
are now 800 pages of regulations. The GATT is now just one of 
18 of the agreements that is enforced, and the WTO's 
enforcement system operates such that any government who is a 
member--which if China were to be admitted, would now include 
China--may challenge the law of any other member government as 
going beyond the permitted constraints of the WTO rules; and 
that decision is then made before a tribunal of three trade 
lawyers.
    There are no basic due process rules. There is no conflict 
of interest rules for the judges. There is no outside appeal. 
Unlike any other international institution where typically 
decisions are made by consensus to move forward, so you 
sacrifice sovereignty but you are not bound unless you agree, 
under WTO, these tribunals' decisions and automatic trade 
sanctions for countries who refuse to remove the laws these 
tribunals say are WTO violations, occur absent unanimous 
consensus to stop, which means 135 countries--136 if China were 
to come in--including the country that is just one sacking some 
U.S. child labor ban, has to agree to stop, or automatically, 
the WTO procedure puts in trade sanctions against the country 
that tries to keep a ban on child labor.
    So from a public citizen's perspective, we say that China 
should not be allowed into the WTO, and in fact as one of the 
organizations that helped organize for the past year toward 
Seattle, we have organized nongovernmental organizations around 
the world because the WTO actively undermines the status quo 
ante as compared to empowering improvements.
    Mr. Smith. This is going to bear, I think, much more 
scrutiny rather than the very quick knee jerk--let us go out 
and ratify all of this--that we are getting from the 
administration. I mean, to this date, I have yet to see the 
fine print. I have only read summaries that CRS was able to 
garner from the administration about what the agreement 
actually is--perhaps you have seen it, but I have been unable 
to get it--and yet we are being told that the mobilization to 
try to politically get this fully moved forward by Congress in 
terms of permanent MFN is being mounted without a scintilla of 
information about what the consequences will be for child 
labor, prison labor, workers rights, human rights and all of 
the rest.
    This is really a cauldron that has to be very, very 
carefully inspected, and I think your testimony and all of your 
testimonies have been very, very helpful in that regard.
    Let me just ask with regard to independent trade unions--
and again, any of our witnesses who might want to respond, and 
Mr. Wowkanech, you might want to respond as well--there have 
been petitions to establish new and free trade unions. Beijing 
has not approved any. What are the prospects for the 
establishment of independent unions, and will there be any 
impact of WTO membership will that help, hinder, or be neutral? 
Does it actually embolden the hard-liners that now they have 
even less to worry about in terms of international 
repercussions, or are trade unions more or less likely?
    Mr. Wowkanech.
    Mr. Wowkanech. I think that the establishment and the right 
for people to form unions is one of many issues that the labor 
community is looking at. We are kind of partners here with the 
rest of the environmentalists, the human rights people and 
everyone else. It is not just a take-one-component and forget 
about everything else--prison labor, child labor. I think that 
what we favor is that a minimum code of international ethics be 
put together encompassing all these issues, and the right to 
form or be a member of the union is just one of many of the 
staples that must be in the package.
    Mr. Smith. Ms. Wallach.
    Ms. Wallach. As a legal matter, under the 18 agreements in 
force by the WTO, there is no floor of conduct regarding human 
rights or labor rights; there are only ceilings. So there is no 
treatment of workers that is too squalid to require a trade 
sanction. But if a government tries to go above what is 
permitted and in the instance, of banning child labor and 
keeping the product out of market access, it is totally, you 
can't do any of that.
    Right now in the WTO, the Government of Canada is at WTO 
challenging the Government of France, which has now implemented 
a worker safety ban on asbestos; and under WTO rules in 
GATTese, the Technical Barriers in Trade agreements, under the 
TBT agreement. In fact, a country's international right to deal 
with asbestos does not include a ban, but only includes 
regulation in labeling. So Canada is using the WTO rules. So 
say that this fundamental worker safety right in France is a 
violation, and if in fact the tribunal just goes straight on 
what the rules are, the French law, which many countries have 
will be struck down. If they take a political approach to let 
off steam, maybe they will let it slide, but in almost any area 
of worker safety, of organizing, et cetera, there is a ceiling 
of activity.
    As a practical matter, if you wanted, instead of having a 
ceiling, to have a floor, it is really quite simple what you 
would do. You would set up as a condition of market access for 
goods in international trade a system of conduct. So, in the 
same sense that for intellectual property you cannot bring 
something into this market unless it has a certificate of 
compliance with the trade-related intellectual property 
agreement, you would have to have a certificate of compliance 
of, for instance, the basic ILO agreements, the multilateral 
agreements on environmental agreements, et cetera. It would 
just be a Customs matter to set the floor, and it would be a 
condition of market access.
    Mr. Smith. Let me ask Mr. Wu. The MOU which we have all 
roundly criticized and have hoped would be beefed up and made 
real for years, it began as we all know under the Bush 
administration as however well intended, certainly a Swiss 
cheese-type of document that allows the Chinese government to 
do the investigations, to tell us when and if we can actually 
investigate a laogai for prison-made goods that are exported, 
and unfortunately the subterfuge continues under the Clinton 
administration. As I pointed out in my opening comments, we 
have had no compliance really.
    I myself was actually in Beijing Prison Number One with 
Frank Wolf. We raised the issue of what we actually got from 
that, as jelly shoes and some socks that were being exported 
and made by Tiananmen Square activists who were in that prison. 
Yes, they took action, but we very seldom have access to these 
sites, and the information is so hard to get. Your Laogai 
Research Foundation has done so much to try to document this. 
What do you see as the progress that is being made to rewrite 
that MOU so that it is stronger and has real teeth, and how is 
that effort threatened by this WTO fight that we're undergoing 
right now?
    Mr. Wu. Mr. Chairman, there are two memorandum of 
understandings between the United States and Communist China. 
Actually, there are no real teeth over there. In particularly 
the last couple or 2 years, no activities have happened. The 
American Government from my view does not want to see anything 
to disturb the relationship between the United States and 
China. They just want to ignore that. In my statement, I very 
clearly said that we will come back over here to tell the 
truth. We can give you so many examples. So many products I 
could show you, like baseball caps, all kinds of things that 
continually come to the United States. Today, the American 
administration did not take any serious action to try to 
enforce or implement the law. I think according to WTO 
principle forced labor should be a major issue. I would say 
while the memorandum of understanding--we use the word MOU--we 
say this is meaning of useless. Thank you.
    Mr. Smith. Let me ask Mr. Rickard: Amnesty is forever 
trying to accurately and tenaciously report on abuses, and you 
always have some positive thing that you hope will happen if 
the brass ring is seized; and you did it again in this 
testimony when you stated, without question, that the period 
between now and the congressional debate on the China deal 
represents an opportunity for the Clinton administration to 
demonstrate that the tree of engagement can bear fruit.
    You named three specific things that you hope might 
happen--I am sure there are many others you hope might happen 
as well: Review the convictions of every person serving a 
prison sentence for counterrevolutionary offenses, dismantle 
the reeducation-through-labor system, and ratify and implement 
international human rights treaties. Could you expound on that 
optimism? Do you have a realistic hope? Do you think the 
administration will say now we are serious?
    Yesterday, it was pointed out in one report that we have 
threatened to get tougher in our report on human rights. That 
would probably be in the country reports on human rights 
practices. We may bring a resolution at Geneva. But you wonder 
whether or not rhetoric now has any currency with the Chinese. 
You mention three very specific things. Do you think the 
administration will try?
    Mr. Rickard. I am sure the administration will try. In 
response to the question of whether or not there is reason for 
optimism, in candor very little. Quite the contrary, for at 
least two reasons. One--I defer to other members of the panel 
who are real experts on China--but it certainly seems to me 
that there has been a pattern of the Chinese government 
actually going out of its way to make very public points that 
cannot be ignored, that we want to make it clear we are not 
doing anything on human rights to move forward. We want to do 
this so obviously, so publicly that you can't really fudge the 
issue.
    I think during the period in which the President's 
executive order linking human rights to most-favored-nation 
status was in effect, it really did seem like the Chinese 
government was saying, we really want you not to be able to say 
with a straight face that any progress at all has taken place. 
I must say, the one thing about that whole debacle that you 
have to give a certain amount of credit to the administration 
for was that in fact they did not try and fudge that and they 
said, no, there really has not been any progress; and if we 
were going to implement the executive order, we would have to 
revoke MFN, and so instead we are just going to back down. They 
were up front about it.
    But I think when the Chinese government arrests dissidents 
just before or even during high-level state visits; when they 
tell the President of the United States whether or not he can 
or cannot bring with him as part of his official delegation 
senior State Department officials, the President's 
representatives like the director of the policy planning 
department who is also his designated special representative on 
Tibet; when the Chinese government says in a very public way 
what reporters can and cannot accompany the President on his 
trip; when Chinese police arrest and severely beat someone for 
speaking with an American human rights official right at the 
moment that this issue is being considered, it is either an 
unbelievable series of coincidences or there is a concerted 
effort to say both externally and perhaps more importantly 
internally, Don't think we're loosening up or we're giving 
anything away about this.
    The second reason why I do not think there is a lot of 
reason for optimism, one hopes and it is a moment when there 
ought to be some leverage, but the other reason is that as I 
mentioned in my testimony there is some reason to think that 
the Chinese government knows very well that in order to live up 
to its end of the commercial bargain here, there is going to be 
tremendous social disruption within China. They are going to 
have to cut tariffs; they are going to have to face at least 
some more competition from external competitors.
    It is precisely the moment that the Chinese government is 
going to be less willing than ever to tolerate independent 
entities, the independent trade movement. So the perverse 
effect is that in the short to medium range, there is every 
reason to think that there is a powerful incentive for the 
Chinese authorities to clamp down as tight or tighter than ever 
because they are anticipating a period of social disruption and 
unemployment.
    We have seen in many other circumstances with international 
financial institutions, the International Monetary Fund, the 
fact is--I don't think really anybody disputes this--that some 
of the things that the IMF requires of governments are painful 
medicine and they cause social disruption. When you have to cut 
back subsidies on bread and fuel and cooking fuel, things like 
that, people are going to be very unhappy about that. In many 
countries around the world, dictatorial governments and 
military dictatorships are in a much better position to do the 
things that the international financial community and business 
community is asking of them, and it can be very destabilizing 
for democratic governments in some of these situations.
    Just to make a last point and then stop. I think Mary 
Beth's point about the World Bank having a procedure where some 
of these issues can be raised is very profound, because it took 
a decade, and the World Bank fought the idea that environmental 
considerations had any relevance whatsoever to their mandate. 
``this is totally outside of our mandate. You want us to use 
our financial power to achieve other objectives.'' and what do 
they say now? They say, ``Environmental considerations is a 
part of good banking. If we don't take these things into 
account, we're going to make bad loans that don't promote 
sustainable development and that don't actually add overall to 
the productivity.'' .
    This is, in fact, a very important consideration, and they 
are beginning to have that rubric about governance issues. What 
is the point of loaning a government $2 billion if at the same 
time that they are supposed to be putting it into hydro 
projects or whatever, they are out purchasing $2 billion worth 
of additional arms with which to repress their own people? That 
is not good banking. You wouldn't make that kind of lending on 
commercial terms.
    So the question is, why is it that in the World Trade 
Organization this idea that anything other than these 
commercial terms are absolutely anathema? I just have to say, 
particularly in light of Lori's testimony, that the more I hear 
about the World Trade Organization, the more I am astonished 
about it, particularly as someone who went through the wars 
this past year over the proposed international criminal court. 
The proposed international criminal court has unbelievable 
safeguards, unbelievable conflict of interest rules, appeal 
rights left and right, opportunities to confront witnesses, et 
cetera, et cetera. Everything is public, et cetera.
    There is a difference, of course, between a commercial 
governmental entity and a court that is deciding on criminal 
penalties for individuals, and it is appropriate that there be 
very, very high safeguards. But they are there and they were 
fought over. Even with all of those, many people find it 
unacceptable. The idea that three judges with no public 
disclosure, no conflict of interest rules can make 
determinations that effectively circumvent the collective 
judgment of the Congress is, and again speaking outside my 
Amnesty portfolio, astonishing to me as an American citizen.
    Mr. Smith. Ms. Wallach.
    Ms. Wallach. The only thing I would add to that is as a 
legal matter to the extent that there is some moment from this 
whole opportunity to use leverage to extract some concrete 
progress, it is actually on the making of the bilateral 
accession agreement. So for any country to get into WTO, there 
are two different processes. There are negotiations bilaterally 
between the big WTO members and the new entrant as to the 
terms, almost all of which are multilateralized. They become 
part of the legal document of that country's commitments and 
obligations under the WTO.
    But also, as we saw, there are some side deals: we will buy 
X bushels of grain, or whatever, as a sweetener. It is at that 
moment, basically, to obtain the support of a country in the 
vote to have a country accede that a variety of different 
potential objective accomplishments can be demanded. In fact, I 
suspect that the crowds in Seattle increased by 20 to 30 
percent merely on the talking, the talk about we are going to 
put human rights and labor rights, a human face in the global 
economy, in contrast to the moment having come, gone and been 
missed of the administration. Having that short moment of 
leverage to list your three things, a handful of others just 
did not do anything when the talk had to turn into walk.
    Mr. Smith. I will yield to my good friend in 1 second. You 
have seen the U.S. WTO summary. Have you been able to look at, 
any of you, the actual agreement? The way I read it--and I 
looked at all the bullets in the summary--is provide full 
trading and distribution rights, cut tariffs from an overall 
average of 22.1 percent to 17 percent, establish a tariff rate 
quota system. Obviously there is nothing in here about human 
rights. It is a missed opportunity even tangentially to have 
brought in what Mr. Rickard had said on those issues. There was 
a moment of opportunity that seems to have been squandered, and 
that is most unfortunate.
    Ms. Wallach. To add to that, I think part of the reason 
why--and my friend from labor could speak to this with an 
official position--but from having read, as many of us have, in 
the press and also in the statements of the AFL-CIO president, 
Mr. Sweeney, the big issue about China and the WTO is to the 
extent the WTO can ever be fixed, pruned back in its excesses 
and some balance in human rights and labor rights added in. It 
is not going to happen when you have China, which has avowed if 
it enters, to make sure it is the 800-pound guerilla that stops 
any such thing. It will never happen.
    Mr. Smith. Like a computer virus getting into the system, 
they will then be proactively trying to excise human rights and 
workers' rights for themselves and anyone else.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. With all the 
problems that we have all been informed through the media and 
the press concerning the recent WTO ministerial meeting in 
Seattle, I like to think that there is a blessing in disguise. 
The WTO has also exposed to the international community some 
very fundamental issues, that either the countries have 
neglected to address or just simply put it under the table, not 
wanting to discuss these fundamental issues. I think there have 
been some pluses as far as the WTO is concerned.
    I know members of this Committee and other members of this 
body have debated quite actively the concepts of free trade and 
fair trade. I can say for quite a number of my good friends and 
colleagues here on the Committee who are great advocates of 
free trade, but when you add the word ``fair'' to it, then it 
changes the whole picture as far as what free enterprise is all 
about. There is also a perspective I think to consider about 
the golden rule: he who has the gold makes the rule. I like to 
think that on the WTO, you have the European Union, you have 
the United States, you have got NAFTA with Mexico, we have 
Japan and we have China. I suppose because of other serious 
situations with India and Russia added, you get into a real 
interesting situation.
    I would like to ask the members of the panel for their 
perspective. How do you tell corporate America not to go to not 
just China, any third world country that pays 10 cents an hour 
in labor wages and suggest that corporate America goes over 
there because this will help the economy of that country? Does 
it really? I raise the question, because I think at the heart 
and soul of the very issue, that really has never been properly 
exposed all these years for the GATT, and what Ms. Wallach has 
stated, now is at the forefront.
    We are talking serious environmental issues; we are talking 
serious labor issues; we are talking serious about slave labor, 
about child labor issues. In addition to China, with these 135 
member countries that supposedly make up the WTO, how are they 
going to resolve these fundamental issues before even talking 
about trade? We are talking about trade, but we have not even 
gotten to the meat of the issues that some of you have raised 
quite eloquently here this afternoon.
    I for one am very concerned. We can talk about free trade 
and the principles of capitalism, to say that millions of 
Americans are stockholders to Wall Street and every other stock 
exchange that we have here in our country. With a $1.7 trillion 
budget a year that is no comparison to almost all other 
countries of the world. How do you bring a sense of fairness 
and equity if we are ever to look at WTO as the organization 
that is going to give or respond or answer some of these 
fundamental issues that I have raised?
    I want to thank Ms. Markey. That was one of the most 
eventful experiences in my life. To drive for 3 hours to 
Dharmasala is not my cup of tea, if you will, but it was a real 
experience that I have had in meeting personally with the Dalai 
Lama, getting a real sense of spiritual understanding and 
appreciation of what the Dalai Lama and the good people of 
Tibet are having to struggle with. I appreciate your mentioning 
that. I would like to have some expertise on this.
    Mr. Wowkanech. With all due respect, I don't know how much 
expertise; it is more of just a recommendation that has been 
developed over some 7 or 8 years, which I indicated in my 
testimony that we have lost close to half a million jobs, 
primarily from American companies, doing exactly what you are 
talking about. I think the situation that we are faced with 
here today, again in my own opinion, nothing official, is that 
there is not one magic brush that is going to cure all these 
ills. I think a number of things have to be put in place, an 
international code of ethics.
    You are right. The workers in China and Burma and the other 
countries, they are not going to come up to the type of livable 
wage that Americans need in this country, but the Americans I 
think would understand that. I think if there were some type of 
a percentage where the percentage of the American livable wage 
or minimum wage was the same in China, at least it would be 
fair competition. But I think what the Americans want to do, or 
the American government, should be to raise the boats of all 
countries to our level, not to take what our parents and our 
parents before them have built up, so that now we are in a 
position where we now have to go down to that level. We cannot 
do that and pay our taxes, our health care bills, send our kids 
to college. We cannot do that. That is catastrophic for us.
    So I think it is a number of things. I think some sort of 
an international code of ethics, basic thresholds, have to be 
established in terms of a living wage, human rights, 
environmental rights, health and safety standards. But the 
other suggestion that I had for the chairman--and I don't know 
if you had missed it in my testimony--attempts to address your 
question on American companies. As I said in my testimony, I am 
not a corporate killer. I have worked with every major 
corporation in our state to make sure that they stay there. I 
believe that we must be a partner with the political community 
as well as the business community and that we are kind of all 
in this together. Once you try and do something on your own, 
you are in trouble. But I have seen firsthand as you have seen 
by the corporate salaries and the packages and the things that 
are going on in this country today, that it is kind of like the 
honor system in West Point. It did not work. The honor system 
in corporate America is not working.
    I think there has to be some public policy developed, and I 
offered the suggestion to this Committee of something that we 
developed in New Jersey, that would be called a Federal 
Industrial Retention Commission. The commission would be 
empowered to review and investigate any plant closings, mass 
layoffs of American companies due to relocation of jobs in 
these other countries. If it is proven that they have gone just 
to circumvent paying the wages and exploit other workers in 
other countries who have no human rights, who have no right to 
belong to a union, who have no health and safety, have no 
environmental concerns, then that company must pay restitution. 
Because what we have seen--and if you could see our map of our 
State of New Jersey--we have seen entire communities where this 
American company was the major employer between property taxes, 
payroll taxes, health care to the employees. All of a sudden 
they are gone.
    We just had that situation with Anheuser-Busch, who shut 
down a plant in our State, 300 workers, less than 2 weeks 
notice before Christmas. They are paying workers in Mexico 
$7.50 a day to make bottles that come back in this country for 
American consumption.
    So I think the idea could be critiqued with some of your 
expertise and the panel's. We need some sort of commission that 
says if you are going to do that and decimate a community and 
load up the welfare rolls of the State, and all those workers 
who had health care do not have health care--and in our State 
we call it charity care, which is paid for by a variety of 
surcharges based on the people that are still working--there 
has to be restitution. These companies cannot get off scot 
free.
    That is probably only two things. There needs to be other 
things that are put in place, but I think that is a big one. As 
I said, the honor system did not work in West Point, and it is 
not working in corporate America. The most important thing is 
that about 45 minutes from now on the stock exchange, when they 
hit the bell for the last time, their number is higher than it 
was the day before, and that is the sad truth of what is going 
on here.
    Ms. Wallach. First, just to put some numbers to your 
observation, the 5-year record of the WTO in effect has 
actually resulted in increased income in equality as between 
countries but also as within countries, and that is data from 
the World Bank. That is not data from some progressive 
institution on economics. As well, the U.N. reported that for 
the countries, developing countries, that have most quickly 
adopted WTO rules, their real wages have dropped most severely 
even while their macroeconomic growth has increased.
    So if you look at not the external indicators like a stock 
market but what it is doing to people's lives, in a broad sense 
this particular version of rules, because this clearly isn't 
free trade, you would have one page that says no barriers. 
Someplace Ann Smith and David Ricardo are rolling in their 
graves because this is managed trade, but it is just one 
version of it.
    There are two approaches to fix it. This is a broad brush 
of it, but the WTO needs to be pruned back to eliminate its 
constraints on existing capacity over the national, State, and 
local government to take action to deal with these issues and 
then it is a smorgasbord of different policy options, many of 
which are not currently allowed under WTO rules but, for 
instance, to set up nondiscriminatory, i.e., you treat foreign 
and domestic goods the same but process standards, i.e., 
environmentally sensitive ways of production. That is the rule; 
that is the floor. Or no child labor, that is the rule.
    Each country has the right then to set the terms for the 
access into its own market, with the basic trade principle that 
has been in existence for 50 years of GATT, that you do not 
discriminate just because of where it is made but rather on the 
set of values that you are going to regulate your market on, 
and then you hold your same producers to the same standard. But 
under the current system, as we have heard from our friend from 
labor, the guy who does it right, i.e., the company that wants 
to pay a wage, pay benefits, et cetera, gets clobbered. They 
are going to go out of business or they are going to have to go 
overseas.
    I have heard that time and again from the owners of 
companies, many of whom have been generation after generation 
in this country and under this set of rules are put in a no-win 
competition. So we can prune back the WTO so as to facilitate 
countries being able to take those measures. Alternatively, 
there can be things added to the WTO to set up within the WTO a 
floor of conduct that becomes an international standard as a 
condition for market access. As I had described before, how you 
would do that is literally the model to use intellectual 
property rules. You literally would have to have a 
certification of meeting X, Y, or Z criteria; and then it is 
enforced as a customs matter, which to the extent that the U.S. 
has ever attempted to enforce through GSP or anything else, any 
labor rights, you end up doing it as a customs certification.
    I think that as a matter of international politics, the 
likely next step is the pruning-back option, where both the 
developing countries and the rich countries would be 
reempowered to make more decisions on their own according to 
their people's needs and would be liberated somewhat from the 
constraints of the WTO as compared to, for me, there are many 
sovereignty issues raised. If you try and actually change the 
country's conduct, it is a different matter if you are changing 
the conduct relating to a good in international commerce. Thus, 
a Malaysian fisherman who in his boat gets 2 pounds of shrimp 
to take to his local town's market would not be required to 
comport with the international environmental agreements, that, 
for instance, would be put on the shrimp trawler, a factory 
trawler that the Malaysian government has purchased, to send 
exports to whatever other markets. That is certainly a first 
step, would be to prune back, whether or not down the road it 
is possible to add a floor.
    But absent that, the trends are on the rule are very clear 
and to the extend there was so much passion in Seattle, it is 
because the outcomes are simply intolerable. In the U.S. we 
have an enormous amount of job creation, but our Department of 
Labor lists the top four categories of job creation as cashier, 
waiter/waitress, janitor, and retail clerk. We haven't caught 
up in the U.S. with real wages since 1972, and we are 
theoretically the winner. When I meet with my coalition 
partners from around the world in Seattle and they say, we're 
taking it in the shorts but at least you guys are doing well, I 
say, look at this data. This whole system needs to be replaced.
    Mr. Faleomavaega. Thank you very much. Mr. Chairman, I 
appreciate it very much. Mr. Chairman, Mr. Rickard has a 
comment. I realize it is easy for me to ask the question, 
realizing also the complications that every one of those 135 
countries have different sets of economies; you have got a 
different standard of living, you have got a different 
governmental system. I am sure my good friend, Mr. Rohrabacher, 
who was here earlier, would have said we are giving up a lot of 
our sovereignty through the WTO, which I fully agree; and to a 
large extent I don't want a separate organization telling my 
country what to do, especially if it involves our national 
interest in some of those areas.
    You can talk about fishing too. I just wanted to see if 
perhaps those who were advocating very strong for WTO, at least 
gives them a chance to see where they might end up in their 
dialogue. Quite obviously, the haves and the have-nots do not 
agree on some of those fundamental issues and the reason for 
the collapse. I tend to agree with Ms. Wallach, that maybe we 
ought to start piecemeal. I think we are trying to grab too 
much at one time. That may be in some instances, in some form 
of categorizations in terms of how each country's economies are 
functioning and maybe work it through that kind of a system; 
but it all comes down to the simple word of ``fairness.'' how 
do you draw the line? What is fair for one country may not 
necessarily be fair for our country.
    So our country having the highest standard of living, 
highest cost of living, highest everything, does not 
necessarily mean that our people working here are getting the 
best deal. I think that is something that certainly I am sure 
the Chairman is quite cognizant of, and that we are trying to 
find solutions to these very fundamental and basic issues. I 
want to thank the members of the panel and thank you, Mr. 
Chairman.
    Mr. Smith. I thank my distinguished friend from American 
Samoa for his faithfulness to the human rights issue in general 
and for doing all that he can. Whether it be Indonesia, China, 
or any of the countries that we deal with, he is always in the 
front.
    Let me just make one final comment, and you might want to 
respond to it or just leave it as a comment. One of the aspects 
of political life--and I have been in this 19 years as a Member 
of Congress--I have really no respect for and zero tolerance 
for, is self-serving theater. We saw it when Jiang Zemin came 
in. First when he made his trip to the United States he stated 
that they were going to sign the International Covenant for 
Civil and Political Rights, he got kudos ad nauseam for that 
statement. But there has been as you pointed out, Mr. Rickard, 
no implementation. It was a very cynical gesture thus far. It 
brought them an enormous amount of good will. There are many 
politicians, Republicans and Democrats, who engage in that kind 
of practice as well.
    Not to make this a stretch, but I have a cynical sense 
about the signing, the ill-timed signing of the abusive forms 
of child labor during the Seattle conclave. As we all know, 
that was agreed to 6 months ago, approximately half a year ago; 
and it doesn't take effect until the requisite number of 
countries accede to it, then I think it waits a year. We should 
have been the first out of the blocks with pen in hand to agree 
to that. Yet it waited until there was a venue that lent itself 
to some political outcome.
    I am not sure if it was done to cloak or for sheer 
political selfishness, but it is that kind of thing that I 
think gives human rights a bad name, especially if, as has been 
pointed out, which I did not realize until this hearing, the 
perverse outcome of this WTO agreement could completely 
undermine that convention and any other like-minded treaty or 
obligation.
    You might want to comment or not, but it is just an 
observation from the chair at least that that kind of thing has 
got to stop, whether it be done by Republicans or Democrats. Do 
not be so cynical. If this was a political deal, let us know 
it. Do not try to give a highfalutin veneer to it because there 
are kids who are suffering every day from child labor, anywhere 
from 100 to 200 million kids. Their lives and futures should 
never be played with in such a cynical way. Mr. Rickard.
    Mr. Rickard. I don't think that there is much doubt that 
the administration saw it as a good opportunity to talk about 
that convention at a high-profile setting where there was going 
to be a lot of criticism of globalization. Now, at the same 
time I have to say that it is not every day of the week that 
the administration rushes through to move forward on a really, 
really good human rights development; and I have to say that I 
think that the new ILO convention on the elimination of the 
worst forms of child labor is a good development.
    I think one of the reasons it was able to be done so 
quickly was because the convention enjoyed--the ILO in general 
and the convention enjoyed the very strong support of Chairman 
Helms, which we unfortunately have not been able to move other 
human rights treaties like the women's convention which have 
languished before the Senate Foreign Relations Committee for 
more than 5 years now. But this was one where there was very 
broad bipartisan support.
    Senator Hatch, who has always been a big supporter of the 
ILO for understandable reasons, the ILO is one of the reasons 
why the solidarity movement survived in Poland. Yes, I think 
the signing of that in Seattle, the high profile that was given 
was part of political theater. At the same time it is a very 
good agreement. It did not go as far as Amnesty and others 
would liked to have seen in addressing the issue of recruitment 
of child soldiers but at least did take a positive step in that 
direction prohibiting coercive recruitment. It still permits 
voluntary recruitment below the age of 18. Yes, it was theater 
but at least--it is an ill wind that blows no good, a good 
human rights treaty that moved very quickly.
    One point I would like to identify with is Ms. Markey's 
comments about what went on in Seattle. Amnesty just completed 
a yearlong campaign on human rights issues in the United 
States. I think we do need to be aware of the fact that there 
are tremendous excesses and abuses of power in this country as 
well. So I completely agree with that, and it is something that 
needs to be looked into. At the same time I am sure she will 
join me in disgust at the Chinese government's saying what 
happened in Seattle in any way remotely equates with what 
happened in Tianamen Square or what happens virtually every day 
of the week in Tibet, in Xinjiang, in other parts of China.
    So my response would be if you ever get to the place where 
you have the kind of abuses that took place in Seattle but 
people have the freedom to organize, the freedom to protest, 
where there is going to be the kind of investigations and 
followup that there will be in Seattle, where groups like 
Amnesty, Public Citizen, and the International Campaign for 
Tibet are free to raise these issues and come before Congress 
and challenge the behavior of the Seattle Police Department, we 
will continue to complain about what happened in Seattle; but 
we will throw a party for you because you will have made 
astonishing progress to have gotten to that point.
    Mr. Smith. The point is excellent and well taken. Are there 
any further comments from our witnesses?
    I would like to thank you for your very, very insightful 
comments to the Committee. I think now more than ever we need 
to get this information out so that there was not a quick and a 
cursory review of what the issues are and the implications from 
those issues, the consequences of which, Ms. Wallach, I think 
you pointed out so well. There are things that all of us are in 
a learning curve on. That is why we have hearings like this. 
The information will be widely disseminated among the members. 
I do think it will have a very, very real impact on the outcome 
as we go forward.
    I want to thank you for the very, very timely information 
that you have imparted to us, and the counsel and wisdom that 
you have given us. Thank you. The hearing is adjourned.
    [Whereupon, at 3:55 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                            December 8, 1999

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T4475.001
    
    [GRAPHIC] [TIFF OMITTED] T4475.002
    
    [GRAPHIC] [TIFF OMITTED] T4475.003
    
    [GRAPHIC] [TIFF OMITTED] T4475.004
    
    [GRAPHIC] [TIFF OMITTED] T4475.005
    
    [GRAPHIC] [TIFF OMITTED] T4475.006
    
    [GRAPHIC] [TIFF OMITTED] T4475.007
    
    [GRAPHIC] [TIFF OMITTED] T4475.008
    
    [GRAPHIC] [TIFF OMITTED] T4475.009
    
    [GRAPHIC] [TIFF OMITTED] T4475.010
    
    [GRAPHIC] [TIFF OMITTED] T4475.011
    
    [GRAPHIC] [TIFF OMITTED] T4475.012
    
    [GRAPHIC] [TIFF OMITTED] T4475.013
    
    [GRAPHIC] [TIFF OMITTED] T4475.014
    
    [GRAPHIC] [TIFF OMITTED] T4475.015
    
    [GRAPHIC] [TIFF OMITTED] T4475.016
    
    [GRAPHIC] [TIFF OMITTED] T4475.017
    
    [GRAPHIC] [TIFF OMITTED] T4475.018
    
    [GRAPHIC] [TIFF OMITTED] T4475.019
    
    [GRAPHIC] [TIFF OMITTED] T4475.020
    
    [GRAPHIC] [TIFF OMITTED] T4475.021
    
    [GRAPHIC] [TIFF OMITTED] T4475.022
    
    [GRAPHIC] [TIFF OMITTED] T4475.023
    
    [GRAPHIC] [TIFF OMITTED] T4475.024
    
    [GRAPHIC] [TIFF OMITTED] T4475.025
    
    [GRAPHIC] [TIFF OMITTED] T4475.026
    
    [GRAPHIC] [TIFF OMITTED] T4475.027
    
    [GRAPHIC] [TIFF OMITTED] T4475.028
    
    [GRAPHIC] [TIFF OMITTED] T4475.029
    
    [GRAPHIC] [TIFF OMITTED] T4475.030
    
    [GRAPHIC] [TIFF OMITTED] T4475.031
    
    [GRAPHIC] [TIFF OMITTED] T4475.032
    
    [GRAPHIC] [TIFF OMITTED] T4475.033
    
    [GRAPHIC] [TIFF OMITTED] T4475.034
    
    [GRAPHIC] [TIFF OMITTED] T4475.035
    
    [GRAPHIC] [TIFF OMITTED] T4475.036
    
    [GRAPHIC] [TIFF OMITTED] T4475.037
    
    [GRAPHIC] [TIFF OMITTED] T4475.038
    
    [GRAPHIC] [TIFF OMITTED] T4475.039
    
    [GRAPHIC] [TIFF OMITTED] T4475.040
    
    [GRAPHIC] [TIFF OMITTED] T4475.041
    
    [GRAPHIC] [TIFF OMITTED] T4475.042
    
    [GRAPHIC] [TIFF OMITTED] T4475.043
    
    [GRAPHIC] [TIFF OMITTED] T4475.044
    
    [GRAPHIC] [TIFF OMITTED] T4475.045
    
    [GRAPHIC] [TIFF OMITTED] T4475.046
    
    [GRAPHIC] [TIFF OMITTED] T4475.047
    
    [GRAPHIC] [TIFF OMITTED] T4475.048
    

</pre></body></html>
